<html>
<title> - NOMINATIONS OF VICE ADMIRAL THAD W. ALLEN TO BE COMMANDANT OF THE U.S. COAST GUARD AND ROBERT M. McDOWELL TO BE A MEMBER OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 109-693]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-693
 
NOMINATIONS OF VICE ADMIRAL THAD W. ALLEN TO BE COMMANDANT OF THE U.S. 
                 COAST GUARD AND ROBERT M. McDOWELL TO 
                      BE A MEMBER OF THE FEDERAL 
                       COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 9, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
28-756                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 9, 2006....................................     1
Statement of Senator Allen.......................................    14
    Prepared statement...........................................    21
Statement of Senator Dorgan......................................    14
Statement of Senator McCain......................................     2
Statement of Senator Bill Nelson.................................    16
Statement of Senator Snowe.......................................    14
    Prepared statement...........................................    15
Statement of Senator Stevens.....................................     1

                               Witnesses

Allen, Vice Admiral Thad W., Nominee to be Commandant of the U.S. 
  Coast Guard....................................................     1
    Prepared statement...........................................     5
    Biographical information.....................................     8
McDowell, Robert M., Nominee to be a Member of the Federal 
  Communications Commission......................................    22
    Prepared statement...........................................    25
    Biographical information.....................................    26

                                Appendix

Response to written questions submitted to Vice Admiral Thad W. 
  Allen by:
    Hon. Maria Cantwell..........................................    55
    Hon. John Ensign.............................................    35
    Hon. Daniel K. Inouye........................................    47
    Hon. John F. Kerry...........................................    53


NOMINATIONS OF VICE ADMIRAL THAD W. ALLEN TO BE COMMANDANT OF THE U.S. 
   COAST GUARD AND ROBERT M. McDOWELL TO BE A MEMBER OF THE FEDERAL 
                       COMMUNICATIONS COMMISSION

                              ----------                              


                        THURSDAY, MARCH 9, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:20 p.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good afternoon. This afternoon, the Committee 
will hear from two of the President's nominees, Vice Admiral 
Thad Allen, to be Commandant of the United States Coast Guard, 
and Robert McDowell, to be a member of the Federal 
Communications Commission. We welcome you both, and your 
families.
    Admiral, you're a native of Tucson, Arizona. You'll become 
the 23rd Commandant of the United States Coast Guard, as I 
understand it. And we look forward to hearing how you plan to 
lead and direct the Coast Guard for the next four years. 
Senator McCain will introduce you when he arrives.
    Mr. McDowell, I think Senator Allen will be here very soon 
to introduce you. We will be happy to have their participation 
when they come.
    To begin with, I think I'll just start with you, Admiral. 
Do you have family with you that you'd like to introduce?
    Admiral Allen. Yes, I do, Senator. Behind me is my wife, 
Pam, my daughter, Amanda, and my son-in-law, John.
    The Chairman. Thank you all for coming. We appreciate it.
    We've got several things going on this afternoon, and our 
Co-Chairman has been called away on personal family business, 
so he will not be here. He sends his apologies. Admiral, please 
proceed.

    STATEMENT OF VICE ADMIRAL THAD W. ALLEN, NOMINEE TO BE 
               COMMANDANT OF THE U.S. COAST GUARD

    Admiral Allen. Yes, sir. Good afternoon, Mr. Chairman.
    I'm honored to be here before you today, and look forward 
to listening to your views and answering your questions. I've 
prepared a statement that I would ask to submit for the record, 
and I have a brief oral statement.
    I am grateful for the confidence of President Bush in 
nominating me to be the 23rd Commandant of the United States 
Coast Guard. If confirmed, my pledge to you and the American 
people is to lead this remarkable organization in continued 
service to America.
    In the last year, we have been tested, from the waters of 
the Persian Gulf to the rooftops of New Orleans. I've stood 
shoulder to shoulder with extraordinary air crews and boat 
crews that literally gave people back their lives. Their 
service inspires me daily, and my goal is to sustain the trust 
of our citizens for America's Coast Guard.
    Today I would like to briefly discuss my priorities and 
objectives and give you an overview----
    The Chairman. Could I interrupt, just----
    Admiral Allen.--of where I intend to----
    The Chairman. Admiral, I see that----
    Admiral Allen.--lead the Coast Guard.
    The Chairman.--Senator McCain has joined us. He intended to 
introduce you. And I want to be sure that he has that 
opportunity.
    And your complete statement will be printed in the record.
    Senator McCain?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I thank you very much, Mr. Chairman. I 
apologize for being a few minutes late. And I'm very grateful 
that you are having this hearing in such a timely manner. This 
is a very important position, as we all know.
    And, very briefly, Mr. Chairman, I'm pleased to introduce 
Admiral Thad Allen. He's a native of Tucson, Arizona, who, as 
you know, has been nominated to be Commandant of the Coast 
Guard.
    I note that this is somewhat ironic, since the largest body 
of water in the Admiral's hometown is the University of 
Arizona's swimming pool.
    [Laughter.]
    Senator McCain. Mr. Chairman, Admiral Allen has dedicated 
himself to public service, having served in the U.S. Coast 
Guard since his graduation from the Coast Guard Academy. 
Presently, as you know, he's serving as Chief of Staff to the 
Commandant, and all of us, all Americans, I think, are familiar 
with his recent work as the principal Federal official 
overseeing the government's recovery efforts in response to 
Hurricane Katrina. His leadership style and commitment to the 
people affected by the disaster have been roundly applauded. 
Hurricane Katrina was not Admiral Allen's only experience in 
disaster recovery. He led the Atlantic Forces in the Coast 
Guard's response to the terrorist attacks on September 11th. I 
believe these experiences will guide Admiral Allen as he leads 
the Coast Guard in securing our ports and protecting our 
waterways.
    And, finally, Mr. Chairman, in addition to an undergraduate 
degree from the Coast Guard Academy, an institution some might 
say he foolishly chose over an appointment to the Naval 
Academy, Admiral Allen holds a Master of Public Administration 
degree from The George Washington University, and a Master of 
Science degree from the Massachusetts Institute of Technology.
    Mr. Chairman, I just want to say I'm grateful that we have 
Americans who serve with distinction and honor and courage and 
dedication, as Admiral Allen has done. And I'm very--I feel 
very humbled to have the opportunity to introduce him to this 
Committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Please continue, Admiral.
    Senator are you----
    Senator McCain. Thank you.
    The Chairman.--withdraw or do whatever you want. It's your 
call.
    Admiral Allen. Mr. Chairman, I have four priorities for the 
Coast Guard.
    Job one is mission execution. We must effectively perform 
the right task. I intend to aggregate the policy guidance 
that's been contained in the Homeland Security Act, the 
Maritime Transportation Security Act, and the recent National 
Strategy for Maritime Security into a Coast Guard Maritime 
Strategy that will serve as a blueprint for legislative, 
regulatory, and budgetary recommendations.
    The nature of the maritime domain requires an integrated, 
layered approach to security, and the Coast Guard strategy will 
support that approach. And our day-to-day mission execution 
will be guided by the principles of operation that have evolved 
over two centuries of Coast Guard operations. They include 
unity of effort, on-scene initiative, and flexibility.
    The exercise of these principles by our ship captains, 
pilots, air crews, and boat crews was never more evident than 
in our response to Hurricane Katrina. And I, also, relied on 
these principles in the execution of my duties as the principal 
Federal official.
    My next two priorities are to improve capabilities and 
competencies. We are nothing without our people, and our people 
cannot be effective without the right tools.
    On the capabilities side, the Coast Guard has embarked on a 
comprehensive recapitalization of our cutters, aircraft, sensor 
architecture through the Integrated Deepwater System. Delivery 
of these assets to relieve aging ships, aircraft, and systems 
is essential to our force's near-term readiness and long-term 
effectiveness.
    Extensive effort has been expended to adjust this program 
to meet new post-9/11 requirements and address gaps arising 
from the increased operations tempo required to meet current 
threats. I am personally committed to executing this program in 
the most effective manner possible. Our Nation needs these 
platforms and the improved operational capability they deliver. 
My focus will be on program management, effective cost control, 
integrated logistics support, and platform effectiveness.
    I am also convinced, based on my experiences in the Gulf 
Coast hurricanes, that we can better exploit the unique 
operational capabilities inherent in our deployable Coast Guard 
units, including our marine safety and security teams, port 
security teams, and strike teams. By grouping these 
capabilities into tailored force packages under a unified chain 
of command, we can sharpen our own toolkit for maritime 
disasters and threat response.
    If confirmed, my first step will be to align Coast Guard 
deployable forces internally, and then seek opportunities to 
integrate these forces with other DHS and Federal capabilities.
    Regarding our terrific Coast Guard people, I intend to have 
an unflinching focus on them. We must provide Coast Guard 
personnel the skills, knowledge, and competencies needed to 
effectively contribute to mission execution, and, at the same 
time, for their individual growth, career development, and 
lifelong learning. Identification of core competencies needed 
to operate and maintain new boats, cutters, aircraft, and 
sensors must be accelerated to complete--and be completed to 
allow delivery of new platforms at full operational capability.
    And, finally, initiatives to improve law enforcement 
competencies, language proficiency, and officer specialty 
management must continually become institutionalized in our 
resource system.
    My final priority is to build a Coast Guard organizational 
structure that supports field operations and ensures mission 
execution. Every element of our services not involved in 
mission execution must be aimed at field support, and we must 
be internally aligned with DHS support systems.
    Based on the new sector mission delivery system and the new 
requirements for deployable forces, I will conduct a 
comprehensive review of existing command and control structures 
and logistics and maintenance systems to ensure that the Coast 
Guard is optimally organized to support field operations.
    The Coast Guard's current finance, maintenance, and 
logistics systems are based on platforms, such as aircraft and 
cutters, not on common functions or processes. This situation, 
as well as future requirements, require that the Coast Guard 
develop and deploy an integrated transformational business 
architecture that aligns with DHS and, above all, facilitates 
more effective mission execution.
    I'd like to make a final comment about partnerships and 
leveraging Coast Guard competencies within the Department of 
Homeland Security and the government.
    I believe that the Coast Guard is well positioned and 
uniquely equipped to contribute to the growing relationship 
between the Department of Homeland Security, the Departments of 
Defense and Justice, and the Director of National Intelligence. 
In particular, the recent issuance of a revised Navy/Coast 
Guard National Fleet Policy by the Chief of Naval Operations 
and the Commandant focuses on our shared world of work and the 
best combined use of our respective capabilities and 
competencies in support of the National Strategy for Maritime 
Security.
    Mr. Chairman, Members of the Committee, I have spent my 
entire life in the United States Coast Guard. I was born while 
my father was an enlisted man on the deck force of a cutter 
underway. In 1967, I traded my dependent's ID card for an 
Active Duty ID card when I entered the United States Coast 
Guard Academy. I've seen life from the junior enlisted ranks, 
as a dependent, and I've been lucky enough to advance through 
the organization as an Active Duty officer.
    My Coast Guard service has ingrained me with an abiding 
respect for its people, their work, and the value this work 
provides to the Nation. My pledge to the Committee and the 
public we serve is to effectively lead and improve this tested 
and trusted organization.
    Thank you, Mr. Chairman. I'd be glad to answer any 
questions.
    [The prepared statement and biographical information of 
Vice Admiral Allen follow:]

    Prepared Statement of Vice Admiral Thad W. Allen, Nominee to be 
                   Commandant of the U.S. Coast Guard

Introduction
    Good afternoon Mr. Chairman and distinguished Members of the 
Committee. I am honored to be before you today and look forward to 
listening to your views and answering your questions. I am grateful for 
the confidence of President Bush in nominating me to be the 23rd 
Commandant of the United States Coast Guard. I can think of no greater 
honor and no better way to continue serving our Nation than through our 
Coast Guard, a Service whose embedded responsibilities impact every 
American. Today I will discuss my priorities and objectives and provide 
an overview of where I intend to lead the Coast Guard. First, let me 
comment on our world of work.

The Coast Guard's ``World of Work''
    The Coast Guard's ``world of work'' is our oceans, seas, lakes, 
rivers, bays, sounds, harbors and our waterways--this is the maritime 
domain and it is unique. Distinct from land borders characterized by 
clear legal boundaries, our oceans represent the last global commons. 
As the Committee knows well, we live in an interconnected world. 
Nowhere is this fact more exemplified than in the maritime domain. It 
is fundamental to our own and the international community's economic 
prosperity. As a result, maritime safety and security are not just 
issues of U.S. national interest and security, but of global stability. 
The maritime domain is also enormously complex, with an unparalleled 
variety of users. From the world's largest cruise ships and tankers to 
professional fishermen and weekend boaters, the profiles of maritime 
users are as varied as the jagged coastlines surrounding our country.
    Thankfully, the Nation has built a Coast Guard able to successfully 
operate in this complex and unique environment. Single-purpose agencies 
such as the Revenue Cutter Service, the Lifesaving Service, and the 
Lighthouse Service have been integrated over the last century into the 
uniquely effective and efficient Service we are today. The Coast Guard 
you oversee, the Coast Guard that we have collectively built has a 
relatively straightforward purpose--exercise authorities and deploy 
capability to guarantee the safety and security of the U.S. maritime 
domain. That is who we are, what we are charged to do, and represents 
the core character of the service. We are military, multi-mission, and 
maritime.
    While the character and nature of our Service are clear, our 
missions are not static. New threats emerge as others are mitigated and 
Coast Guard capabilities, competencies, organizational structure, and 
processes must change accordingly. If confirmed, my enduring goal will 
be to lead a Coast Guard that is steadfast in its character but 
adaptive in its methods.
    The work of this Committee helped ensure that the Coast Guard was 
transferred intact to the Department of Homeland Security. We now must 
adapt to the reality of an ever-changing maritime domain. Our mandate 
and responsibility, indeed our passion, is serving the Nation with the 
best leadership, authorities and capability we can muster.

Priorities . . . Right Tasks . . . Right People and Tools . . . 
        Effective, Integrated Support
    Secretary Chertoff has set forth a six-point agenda to guide near 
term Department of Homeland Security priorities and initiatives.

  <bullet> Increase overall preparedness, particularly for catastrophic 
        events;

  <bullet> Create better transportation security systems;

  <bullet> Strengthen border security, interior enforcement, and reform 
        immigration processes;

  <bullet> Enhance information sharing with our partners;

  <bullet> Realign the Department of Homeland Security (DHS) 
        organization to maximize mission performance; and

  <bullet> Improve DHS financial management, human resource 
        development, procurement, and information technology.

    These are the Secretary's priorities, and they are mine. If 
confirmed, I will work collaboratively throughout the Administration 
and with the Congress to translate this agenda into action. I will 
focus on:

  <bullet> Mission execution . . . performing the right tasks with the 
        right doctrine that reduce risk, mitigate threats, improve 
        response, increase preparedness, and enhance our ability to 
        recover from events that occur;

  <bullet> Capabilities and competencies . . . we are nothing without 
        our people, and our people cannot be effective without the 
        right tools; and

  <bullet> Coast Guard organizational structure that optimizes mission 
        execution . . . aimed at field support, leveraging partnerships 
        at all levels of government, and internally aligned with DHS 
        systems.

Mission Execution . . . 
The Right Tasks
    The nature of the maritime domain requires an integrated, layered 
approach to its security. With 95,000 miles of coastline and 360 
primary commercial ports, there is no fence or barrier that can be 
erected to protect our maritime borders. We are bounded by the oceans 
but we're not protected by them. It is precisely this reality that led 
the President to issue in September 2005 the National Strategy for 
Maritime Security (NSMS). This strategy is unprecedented in its 
dedicated focus on the maritime domain and the necessity for its global 
security. The NSMS addresses the full range of maritime threats and is 
not limited to terrorism. With the structure provided by the Congress 
in both the Homeland Security Act of 2002 and the Maritime 
Transportation Security Act (MTSA) of 2002, together with the 
International Ship and Port facility Security (ISPS) code, the 
requisite pieces are in place to provide a maritime policy framework 
appropriate to the risks we collectively face.
    To further strengthen maritime border security, I will develop and 
deploy a supporting Coast Guard Maritime Strategy. In December 2002, 
the Coast Guard published its Maritime Strategy for Homeland Security 
and it has served us exceedingly well. Under Admiral Collins' 
leadership, we have moved boldly to accomplish its objectives and 
execute its directed initiatives. Now is an appropriate time to ``take 
a fix'', and layout a trackline for the future. The Coast Guard's 
Maritime Strategy will directly support both the NSMS and MTSA and 
integrate our activities related to security, safety, preparedness, 
response and recovery. With that strategy as a foundation, I will work 
closely with DHS, the Administration and with the Congress to align 
legislative, budgetary, and rulemaking activity in support of national 
policy.

The Right Doctrine . . . Improved Response, Ability to Recover
    The Coast Guard's capstone doctrinal publication, what we call 
``Pub 1,'' is entitled America's Maritime Guardian. It describes how, 
while executing multiple missions, we ``harmonize what seem to be 
contradictory mandates. We are charged at once to be policemen and 
sailors, warriors, humanitarians, regulators, stewards of the 
environment, diplomats, and guardians of the coast. Thus we are 
military, multi-mission, and maritime.''
    Our value proposition to the American public lies in our ability to 
shift among roles with the same platforms and personnel, capable and 
competent of performing a range of missions. This is made possible by 
adhering to Coast Guard principles of operations that have evolved, and 
been tested, over two centuries of maritime operations. They are 
codified in ``Pub 1'' and listed below:

  <bullet> Clear objective,
  <bullet> Effective presence,
  <bullet> Unity of effort,
  <bullet> On-scene initiative,
  <bullet> Flexibility,
  <bullet> Managed risk, and
  <bullet> Restraint.

    The application of these principles across a wide-ranging mission 
portfolio is the mission model of the Coast Guard. The exercise of 
these principles by our ship captains, pilots, air crews, and boat 
crews was never more evident than in the response to Hurricane Katrina. 
These principles were also the tools I used in the execution of my 
duties as Principal Federal Official for the response to Hurricanes 
Katrina and Rita. From national incidents to day-to-day operations, 
from local responses to interagency efforts across broad regions, from 
domestic enforcement to international partnership--these principles 
empower and enable execution of all our missions. If confirmed, I 
intend to build on the time-tested strength of this operational model 
and ensure it is ready for the dynamic maritime domain we face.
    The Coast Guard is well versed in operating land-based and large 
mobile assets such as cutters and maritime patrol aircraft. However, 
deployable units such as strike teams and port security units have 
evolved in the last thirty years and are relatively new force 
structures in the Coast Guard. After September 11, 2001, additional 
capability was added to these forces in the creation of Maritime Safety 
and Security Teams. Based on my experience leading the Federal response 
to the Gulf hurricanes, I am convinced we can better exploit the 
special operational capabilities inherent in these deployable units. By 
grouping these capabilities into tailored force packages under a 
unified chain of command, we will sharpen our own tool kit for maritime 
disaster and threat response. More importantly, we will be better able 
to integrate these Coast Guard capabilities with other DHS and Federal 
capabilities such as Customs and Border Patrol (CBP) and Immigration 
and Customs Enforcement (ICE) law enforcement, urban search and rescue 
teams, disaster medical assistance teams and, when deployed, DOD 
forces.
    If confirmed, my first step will be to align Coast Guard deployable 
forces internally and then seek opportunities to integrate these forces 
with other DHS and Federal capabilities.

Capabilities and Competencies . . . 
The Right Tools
    The Coast Guard has embarked on a comprehensive recapitalization of 
our cutters, aircraft, and C4ISR \1\ architecture through the 
Integrated Deepwater System. Delivery of these assets to relieve aging 
ships, aircraft, and systems is essential to our forces' near-term 
readiness and long-term effectiveness. Extensive effort has been 
expended to adjust this program to meet new post-9/11 requirements and 
address gaps arising from the increased operations tempo required to 
meet current threats. I am personally committed to executing this 
program in the most effective manner possible. Our Nation needs these 
platforms and the improved operational capability they deliver. My 
focus will be on program management, effective cost control, integrated 
logistics support, and platform effectiveness. In addition, successful 
stewardship and program execution associated with both the Rescue 21 
and Response Boat--Medium acquisitions are critical to current and 
future operations of our shore-based and coastal operating forces.
---------------------------------------------------------------------------
    \1\ C4ISR is an acronym for Command, Control, Communications, 
Computers, Intelligence, Surveillance and Reconnaissance.
---------------------------------------------------------------------------
The Right People
    Under Admiral Collins' watch words of Readiness, People, and 
Stewardship, we have significantly grown and improved the competency of 
the Coast Guard's work force. This unflinching focus on people has 
benefited the Service at every level. The challenge I accept is to 
continue to provide Coast Guard personnel the skills, knowledge, and 
competencies needed to effectively contribute to mission execution and 
at the same time further individual growth, career development, and 
lifelong learning. Identification of core competencies needed to 
operate and maintain new boats, cutters, aircraft, and sensors must be 
accelerated and completed to allow delivery of new platforms at full 
operational capability. The terrific work of the current Master Chief 
of the Coast Guard Frank Welch to provide leadership training at key 
accession and transition points must be sustained. Leadership training 
and broader exposure to homeland security policy and operations should 
be provided to mid-level managers. Finally, initiatives to improve law 
enforcement competencies, language proficiency, and officer specialty 
management must continue.

Coast Guard Organizational Structure That Optimizes Mission Execution . 
        . . 
Focused on Field Support
    The Coast Guard has taken bold steps to consolidate shore-based 
forces at the port level into single, mission-focused Sector commands. 
This consolidation will provide a single point of accountability for 
operations. It will also unify resource allocation and enable risk-
based decision making tools to focus Coast Guard capability and 
competencies to reduce risk and mitigate threats.
    Based on the new Sector mission delivery system and the new 
requirements for deployable forces, I will conduct a comprehensive 
review of existing command and control structures, and logistics and 
maintenance systems to ensure that the Coast Guard is optimally 
organized to support field operations. In addition, we will develop and 
enhance partnerships within DHS and at all levels of government to 
improve interoperability, joint operating procedures, and employment of 
finite resources.

Leveraging Partnerships
    The vastness and complexity of the maritime domain make public and 
private partnerships a prerequisite of preparedness and effective 
response. For example, the standards-based approach of MTSA and ISPS 
regulatory efforts explicitly recognize that security and commerce 
cannot be competing interests. The combination of detailed performance 
standards and rigorous Coast Guard enforcement has made us safer. 
Additionally, the creation and regulatory enforcement of security 
partnerships at the port and national level will allow us to make 
continual enhancements to our collective effort.
    In the public arena, I believe the Coast Guard is well positioned 
and uniquely equipped to contribute to the growing relationships 
between DHS and the Departments of Defense and Justice, as well as the 
Director of National Intelligence. For example, the recent issuance of 
a revised Navy-Coast Guard National Fleet Policy by the Chief of Naval 
Operations and the Commandant focuses on our shared world of work and 
the best combined use of our respective capabilities and competencies 
in support of the NSMS. Similarly, the recently published Quadrennial 
Defense Review (QDR) speaks directly to the need and value of fully 
integrating Coast Guard capabilities into defense planning. Further, 
the President has laid out a specific vision for global maritime 
intelligence integration. As a member of the Intelligence Community, I 
will seek to strengthen the Coast Guard's relationship across the 
community to help facilitate DHS' achievement of the President's 
vision.

Aligned With DHS Systems
    In too many cases, the Coast Guard's current finance, maintenance, 
and logistics systems are based upon platforms (e.g., aviation, 
surface) rather than common functions or processes. A unified financial 
accounting system is a requirement for effective support to the field, 
necessary for the deployment of internal control systems, and 
fundamental in addressing material weaknesses identified in recent 
audits. At the same time, the Integrated Deepwater System acquisition 
is transforming our maintenance and logistics systems. The inadequacy 
of the status quo as well as future requirements require that the Coast 
Guard develop and deploy an integrated, transformational business 
architecture that aligns with DHS and, above all, facilitates more 
effective mission execution.

Conclusion
    Mr. Chairman and Members of the Committee--I have spent my entire 
life in the United States Coast Guard. I was born while my enlisted 
father, a Seaman on the deck force, was underway on a Coast Guard 
cutter. In 1967, I traded my dependent's ID card for an active duty 
card when I entered the United States Coast Guard Academy. I have seen 
life from the junior enlisted ranks as a dependent, and I have been 
lucky enough to advance through the organization as an active duty 
officer.
    The entirety of this experience has prepared me to sit before you 
today, and I am truly honored by the trust that the President and 
Secretary Chertoff have placed in me. My Coast Guard service has 
ingrained in me an abiding respect for its people, their work, and the 
value this work provides to the Nation. My pledge to the Committee and 
the public we serve is to effectively lead and improve a tested and 
trusted organization that provides value to people's lives every day.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Thad William 
Allen
    2. Position to which nominated: Commandant, U.S. Coast Guard.
    3. Date of Nomination: January 25, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 2100 2nd Street, S.W., Washington, D.C.

    5. Date and Place of Birth: January 16, 1946, Los Angeles, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Pamela Ann Allen (Spouse), Assistant Dean for Student Services, 
        School of Management, George Mason University, Fairfax, VA.

        Amanda Jo Foley (Daughter, age 29).
        Meghan Colleen Altobello (Daughter, age 27).
        Lucas Matthew Allen (Son, age 25).

    7. List all college and graduate degrees. Provide year and school 
attended.

        U.S. Coast Guard Academy, 1967-1971, B.S., 1971.
        The George Washington University, 1984-1986 MPA, 1986.
        Massachusetts Institute of Technology, Sloan School, 1988-1989 
        M.S., 1989.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

------------------------------------------------------------------------
     From        To   Name of Employer       Address       Type of Work
------------------------------------------------------------------------
1967            1971  U.S. Coast Guard  U.S. Coast Guard  Cadet
                                         Academy, New
                                         London, CT
1971            1973  U.S. Coast Guard  Cutter            Deck Watch
                                         ANDROSCROGGIN,    Officer
                                         Miami Beach, FL
1973            1974  U.S. Coast Guard  Greater Antilles  Search &
                                         Section Office,   Rescue
                                         San Juan, PR      Controller
1974            1975  U.S. Coast Guard  Long Range        Commanding
                                         Navigation        Officer
                                         (LORAN)
                                         Transmitting
                                         Station,
                                         Lampang,
                                         Thailand
1975            1977  U.S. Coast Guard  Cutter GALLATIN,  Operations
                                         Governors         Officer
                                         Island, NY
1977            1979  U.S. Coast Guard  DEA/INS El Paso   Intelligence
                                         Intelligence      Watch Officer
                                         Center (EPIC),
                                         El Paso, TX
1979            1982  U.S. Coast Guard  USCG Group,       Group
                                         Atlantic City,    Commander
                                         NJ
1982            1984  U.S. Coast Guard  Cutter CITRUS,    Commanding
                                         Coos Bay, OR      Officer
1984            1986  U.S. Coast Guard  The George        Graduate
                                         Washington        Student,
                                         University,       Public
                                         Washington, DC    Administratio
                                                           n
1986            1987  U.S. Coast Guard  Third Coast       District
                                         Guard District,   Planning
                                         Governors         Officer
                                         Island, NY
1987            1989  U.S. Coast Guard  Massachusetts     Sloan Fellow,
                                         Institute of      Sloan School
                                         Technology,       of Management
                                         Boston, MA
1989            1991  U.S. Coast Guard  USCG              Deputy Project
                                         Headquarters,     Manager
                                         Office of
                                         Acquisition,
                                         Washington, DC.
1991            1993  U.S. Coast Guard  USCG              Assistant
                                         Headquarters,     Chief,
                                         Office of the     Programs
                                         Chief of Staff,   Division
                                         Washington, DC
1993            1996  U.S. Coast Guard  USCG Group, Long  Group
                                         Island Sound,     Commander &
                                         New Haven, CT     Captain of
                                                           the Port
1996            1999  U.S. Coast Guard  USCG              Resource
                                         Headquarters,     Director
                                         Office of the
                                         Chief of Staff,
                                         Washington, DC
1999            2001  U.S. Coast Guard  Seventh Coast     District
                                         Guard District,   Commander
                                         Miami, FL
2001            2002  U.S. Coast Guard  Commander, Coast  Area Commander
                                         Guard Atlantic
                                         Area, Norfolk,
                                         VA
2002            2006  U.S. Coast Guard  USCG              Chief of Staff
                                         Headquarters,
                                         Office of the
                                         Chief of Staff,
                                         Washington, DC
2005            2006  Department of     Joint Field       Principal
                       Homeland          Office, Baton     Federal
                       Security          Rouge, LA         Official,
                                                           Hurricanes
                                                           Katrina and
                                                           Rita (LA)
------------------------------------------------------------------------

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        Advisory Board Member, Department of Public Administration, 
        School of Public Policy and Public Administration, The George 
        Washington University, Washington, DC.

        Advisory Board Member, Center for Innovation in Public Service, 
        The George Washington University, Washington, DC.

        Member, Board of Directors and Executive Committee, National 
        Academy of Public Administration, Washington, DC.

        Member, Local Federal Coordinating Committee, Combine Federal 
        Campaign, National Capitol Area.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        U.S. Coast Guard Academy Alumni Association, 1971-Present.

        U.S. Naval Institute, 1974-Present.

        American Society of Military Comptrollers, 1996-Present.

        American Society, of Public Administration, 1986-Present.

        Executive Board, Washington DC Area Coast Guard Officers 
        Association, 1991-1992.

        Vice Chairman, Policy Committee, S. Florida Federal Executive 
        Board, 1999-2001.

        Board of Trustees, U.S. Coast Guard Academy, 1996-1999.

        Board of Governors, Greater Miami Chamber of Commerce, 1999-
        2001.

        Board of Advisors, Center for Sustainable Fisheries, University 
        of Miami, 2000-2001.

        Board of Advisors, Public Administration Department and Center 
        for Innovation in Public Service, George Washington University, 
        2000-Present.

        Chairman, Combined Federal Campaign, Miami-Dade County, 2000.

        Chairman, Combined Federal Campaign, Department of Homeland 
        Security, 2003.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Scholarships: Coast Guard Academy, 1967-1971.
        George Washington University, 1984-1986.

    Fellowships:

        MIT Sloan Fellow, 1988-1989.

        Coast Guard Nominee to Chief of Naval Operations Strategic 
        Study Group, 1996. (Did not attend due to promotion to Rear 
        Admiral).

        Fellow, National Academy of Public Administration.

    Honorary Degrees: None.

    Academic Recognition:

        Distinguished Graduate, School of Business and Public 
        Administration, George Washington University, 2001.

        Distinguished Graduate, George Washington University, to be 
        awarded May 2006.

    Honorary Society Memberships:

        Pi Alpha Alpha (National Public Administration Honor Society).

        Society of MIT Sloan Fellows.

    Personal Military Awards:

        Two Distinguished Service Medals.
        One Legion of Merit.
        Three Meritorious Service Medals.
        Three Coast Guard Commendation Medals.
        Two Coast Guard Achievement Medals.

    Other Military Recognition:

        1981 Nominee for the CAPT David Jarvis Award (Annual U.S. Navy 
        League Award for Leadership).

        1981 Officer of the Year, New Jersey, Reserve Officers 
        Association.

    Other Governmental Recognition:

        Two Drug Enforcement Administration Certificates of 
        Appreciation for Outstanding Contributions in the Field of Drug 
        Law Enforcement (1978-1979).

        Organized Crime Drug Enforcement Task Force National Award, 
        Operation Panama Express, 2001.

        2005 President's Award of Excellence, Hispanic Association of 
        Colleges and Universities.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

------------------------------------------------------------------------
                Title                            Publisher/Date
------------------------------------------------------------------------
Vessel Identification Guide            U.S. Drug Administration, El Paso
                                        Intelligence Center (EPIC);
                                        Reference Document 04-78, 1978
Realignment of Support and Management  U.S. Coast Guard, 1987
 Functions of The United States Coast
 Guard (Contributing writer)
The Evolution of Federal Drug          Master's Thesis, Alfred P. Sloan
 Enforcement and the United States      School of Management,
 Coast Guard's Interdiction Mission:    Massachusetts Institute of
 A Case Study                           Technology, Boston, MA
Getting Results: A Guide for Federal   The Government Performance
 Leaders and Managers (Contributed      Coalition Management Concepts,
 Chapter entitled, ``A Career           2005
 Leader's View'')
Housing Must be Tailored To Each       New Orleans The Times-Picayune OP-
 Family (PFO Commentary on Hurricane    ED column 18 October 2005
 Katrina evacuee housing issues)
Interactive Academic Town Hall         The George Washington University,
 meeting, carried live by CSPAN-2       School of Public Policy and
 (Participation via VTC from Joint      Public Administration, December
 Field Office in Baton Rouge, LA)       2005.
------------------------------------------------------------------------

    Numerous interviews with media during Hurricane Katrina response 
and throughout my career in conjunction with my official 
responsibilities.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    While assigned to offices list below I participated in the 
formation, presentation, and defense of annual Coast Guard 
appropriation requests and authorizing legislation. This activity 
included, but was not limited to, development of budget estimates, 
preparations for Congressional hearings, submission of materials to 
Congressional staffs, discussion with Congressional staffs and members, 
and attendance at or testimony provided for hearings.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I would obtain advice from the Department DAEO or his designee as 
appropriate and take appropriate action to resolve the conflict.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.

        1970: Arrested by Amsterdam, Netherlands police following an 
        altercation in a bar involving Coast Guard Academy Cadets. 
        Restricted to ship for remainder of the port call.

        1972: Arrested by Winter Park, FL police following a vehicle 
        accident and held in custody overnight. Subsequently fined and 
        license suspended for 90 days for driving while under the 
        influence.

        Note: Information regarding both of these incidents has been 
        provided during required background investigations for security 
        clearances and in prior confirmation questionnaires throughout 
        my career of 35 years.

    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    See Question 2 above. I do not know whether this violation was 
considered a criminal violation or traffic offense.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    Admiral, I've received word that Senator Allen wants to 
introduce Mr. McDowell. Will you mind just staying there and 
permit us to do that?
    Senator Allen. I'll wait. I don't want to upset--we'll 
wait. Let's go forward with the----
    The Chairman. You're all right? OK, fine. Let me just ask a 
couple of questions, then, Admiral.
    What do you think about the direction we're going, as far 
as the Deepwater projects that we believe we should be 
pursuing? We seem to be upgrading the projects, the existing 
legacy assets, rather than going into Deepwater. Have you 
looked over that situation to see what we should do?
    Admiral Allen. I have, sir, and it's a delicate balance. We 
need that new inventory of assets absolutely as soon as we can 
get them. But the current operation tempo demands that we meet 
our mission requirements out there. And it requires us to 
sustain those legacy assets until the new ones can be replaced. 
It's going to require a clutch-and-gas type of approach. I am 
committed to doing that and making sure those legacy assets get 
the job done, but getting those new assets online as quickly as 
we can, sir.
    The Chairman. You and I have had some conversations about 
the problem of the icebreakers. I've just returned this week. I 
was in my State last weekend. Our inlet was almost iced in. 
What is going to be the policy about the access to the 
icebreakers for our state and the Pacific Northwest?
    Admiral Allen. Well, sir, I think there's been a dramatic 
change in the landscape of icebreaking capability and 
requirements in the last couple of years. As you know, there 
was an accommodation made last year to shift funding in the 
National Science Foundation, to actually bring the money back 
to the Coast Guard to support our operations. I think, with the 
growing concern over the shrinking of the Arctic icecap, the 
continuing issues with resupply of McMurdo Sound and the South 
Pole, and the condition of the icebreakers, I think a national 
public policy discussion is in order to take a more holistic 
view of where we need to go, and where we need to go with all 
three of the icebreakers, not just the two Polar Class and the 
Healy, sir.
    The Chairman. Well, I can't ask you for comment, but I 
intend to try and reverse that decision that was made last 
year. I don't think it makes any sense at all. The National 
Science Foundation is also under the jurisdiction of this 
Committee, but it doesn't have a constant need for icebreakers. 
It does, in terms of its scientific expeditions at the North 
and South Poles, but there's still a need for our Nation to 
have access to icebreakers, particularly those of us who live 
in the area I live in, in Alaska.
    What about the basic problems that we have with regard to 
the maritime boundaries. I'm particularly concerned with the 
maritime boundary in the Bering Sea. Have you looked into that 
problem, of how we're going to maintain the security of the 
maritime boundaries in the future?
    Admiral Allen. Yes, sir. As you know, our commitment right 
now is to have one cutter on the major boundary line--maritime 
boundary line, and one in the Bering Sea. We continue to meet 
that commitment. Our challenge is, as we decommission the older 
ships and bring the new ones online, to not break that 
commitment and keep that presence up there. That's one reason 
why we are intending to relocate one of our high-endurance 
cutters to Kodiak, to replace the--Coast Guard Cutter Storrs 
will be decommissioned, sir.
    The Chairman. We intend to try and authorize another 
icebreaker for the Coast Guard. I don't know what the Congress 
is going to do about that, but that's one of our intents.
    Senator Dorgan, do you have any questions of the Admiral?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, only to say that I'm pleased 
to support his nomination. Vice Admiral Allen has a 
distinguished background, and--look forward to supporting the 
nomination, look forward to a robust Coast Guard presence in 
North Dakota in the future.
    [Laughter.]
    Admiral Allen. Happy to discuss it, sir.
    [Laughter.]
    The Chairman. Well, between operating that swimming pool in 
Phoenix and this thing in North Dakota, if you get around to 
it, send another icebreaker up our way, will you?
    [Laughter.]
    The Chairman. Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. I have no question. I look forward to 
supporting Admiral Allen. We are not related.
    [Laughter.]
    Senator Allen. We can--we, fortunately, don't need 
icebreakers that much in Virginia. Once in a while, in the 
Potomac, I suppose.
    The Chairman. Senator Snowe?
    Senator Snowe. Thank you, Mr. Chairman. I want to ask----
    The Chairman. Pardon me. Senator Bill Nelson, I didn't see 
you----
    Senator Snowe. Oh, go right ahead. Yes, that's fine.
    The Chairman.--over there. Pardon me.
    Senator Bill Nelson. Go ahead with the----
    The Chairman. All right. Senator Snowe, go ahead. He's 
hiding behind his colleague there.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. And I ask unanimous 
consent to include my entire statement in the record.
    I want to applaud Admiral Allen for all that he has done on 
behalf of the Coast Guard, and all that he will do in the 
future, in his new position as Commandant of the Coast Guard. 
He has demonstrated his exemplary performance in righting the 
response to Hurricane Katrina, with his critical role that he 
played in New Orleans and throughout the Gulf region during 
that very difficult and devastating time.
    And I look forward to working with you, Admiral Allen, on 
so many of the key issues that are confronting the Coast Guard 
that demonstrated its superb professionalism and dedication and 
heroism in its response to Hurricane Katrina when it saved more 
than 33,000 lives. I hope that we will be able to work with you 
in providing the resources that the Coast Guard rightly 
deserves, with the Deepwater recapitalization--I hope that we 
can expedite that timetable--and also to provide you with the 
interoperability, the command and control, that one Deepwater 
asset that was in the Gulf at the time was able to provide. The 
Coast Guard, otherwise, is without it, but made do with what 
you didn't have, which, again, shows the remarkable dimension 
of the skills and professionalism of the Coast Guard.
    So, I'm looking forward to working with you. And, 
obviously, I think the issue of port security is one of the 
preeminent concerns, and probably will be the most critical 
challenge of your tenure.
    And I look forward to working through some of these issues 
to ensure that you have the resources to do all that's going to 
be essential to provide for our homeland defense and security.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Mr. Chairman, thank you for holding this nominations hearing today. 
As Chair of the Subcommittee on Fisheries and Coast Guard, and a 
representative of a state with a long and proud maritime heritage, I am 
pleased to address leadership transition of the United States Coast 
Guard. The current Commandant will complete his tour of duty on May 
25th, and it is now imperative that the Senate considers and confirms 
his successor.
    First, let me express my deep appreciation for the outstanding 
leadership of Admiral Tom Collins. For the past four years, he has 
carried out his duties as Commandant with distinction and remarkable 
accomplishment, particularly during the tumultuous aftermath of 
Hurricanes Katrina and Rita. The brave men and women of the Coast Guard 
performed heroically in saving more than 33,000 lives under disastrous 
conditions never before faced in this country, which is a testament to 
his outstanding leadership.
    Since then, Admiral Collins and his Chief of Staff, Vice Admiral 
Thad Allen, have worked tirelessly to ensure the Coast Guard is ready 
to respond to any threat. With their sure and steady hands at the helm, 
they upheld the Coast Guard's readiness under challenging circumstances 
and have been at the forefront in facilitating the Deepwater project--
which is not only urgent and essential for upgrading the Coast Guard's 
aging assets but also for shoring up the very foundation of our 
Nation's homeland security. As the Coast Guard has increasingly been 
called upon to do more with less--with the 40th oldest fleet among the 
world's 42 nations with maritime forces--they have navigated these 
treacherous waters effectively and with impressive diligence.
    Given the threats we face today--whether natural disasters or the 
products of discontent societies--it is vital that the new Commandant 
of the Coast Guard maintains this course, and I have every confidence 
that Vice Admiral Allen is the right person for the job. As the 
Chairman noted, the nominee before us today has compiled a long and 
distinguished record in the service of our Nation. Serving as Admiral 
Collins' Chief of Staff for the past four years, he has been 
instrumental in guiding the transition of the Coast Guard to its new 
normalcy in the post-9/11 environment.
    Looking forward, the challenges facing our Nation, and the Coast 
Guard, under Admiral Allen's leadership will only continue to grow. The 
Coast Guard must continue to be an integral component of our Nation's 
military and a vigilant defender of our homeland security. While we 
have seen the Department of Homeland Security rightfully come under 
scrutiny during recent national events, including its roles in natural 
disasters and port security oversight, the Coast Guard has consistently 
demonstrated an outstanding ability to carry out its missions each and 
every time, and it must continue to do so. No Coastie better 
demonstrated the service's ``get it done attitude'' better than Admiral 
Allen, who confidently stepped in to a critical leadership role and 
righted the Federal Government's response to Katrina. His ability to 
coordinate the efforts of all local, state, and Federal agencies into 
one harmonious response should be the model to emulate when the next 
disaster strikes.
    As our Nation has painfully learned over recent weeks and months, 
there is simply no substitute for maintaining a ready posture when it 
comes to protecting our homeland. The recent firestorm over the 
proposed sale of critical ports terminals to Dubai Ports World has 
highlighted the vulnerabilities in our port security. Our nation 
requires a Coast Guard that can provide us with secure ports, and, 
Admiral Allen, I believe that is going to be the greatest challenge of 
your tenure.
    Yet beyond these headline-grabbing cases, every single day the 
Coast Guard must continue to work tirelessly, outside the spotlight, to 
uphold our Nation's safety and security. Through its search and rescue 
operations, this service aids people in distress and prevents the 
losses of life and property on our waters. The Coast Guard enforces all 
Federal laws and treaties related to the high seas and U.S. waters and 
prevents illegal narcotics from reaching our shores. This service is 
the lead Federal agency for preventing and responding to major 
pollution incidents in the coastal zone. At the same time, it makes our 
ports and shipping lanes safe for efficient maritime transportation and 
commerce. And as one of the armed services, it plays a critical role in 
our Nations's defense strategies. Under your watch, Admiral Allen, the 
Coast Guard's vital role in each of these missions will undoubtedly 
continue to have direct bearing on our Nation's security and welfare.
    Mr. Chairman, I am impressed with Vice Admiral Allen's credentials 
for the Coast Guard's highest leadership position. The president could 
not have chosen a more qualified individual for this critical position. 
I look forward to his testimony and to working with him on the safety 
and security issues so critical to our Nation, and I again thank you 
for scheduling this vital hearing today.

    The Chairman. Thank you. All the opening statements will be 
printed in the record in full.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Thank you, Mr. Chairman.
    The Coast Guard created quite a firestorm in Florida in 
January--early January. Fifteen Cuban rafters were clinging to 
a bridge in the Florida Keys, thinking that they had reached 
land. The Coast Guard rounded them up and sent them back to 
Cuba, under the legal reasoning that since this was the old 
bridge, the new bridge having been built right beside it, that 
the old bridge wasn't actually connected to the land; and, 
therefore, they had not reached the land side of America.
    A Federal judge has just ruled that that was wrong and 
contrary to law. Is the Coast Guard going to appeal that 
Federal judge's ruling?
    Admiral Allen. Senator, that issue is under review in the 
Department right now. We do not have an opinion from the 
Department of Justice yet, but I understand it's under review.
    Senator Bill Nelson. What was the legal reasoning that you 
came to that you would consider, under the wet foot/dry foot 
policy, that they had not reached America?
    Admiral Allen. Well, first of all, Senator, let me just 
state that I was not at Coast Guard Headquarters when that 
occurred. I was still involved in my duties regarding the Gulf. 
I am a former Seventh District Commander in Miami, and I've 
been involved in those missions before. But a legal 
determination was made by our legal staff, and communicated 
down to the Commander of the Seventh Coast Guard District, who 
I believe you've already met with, that assimilated that bridge 
to being the same as something that was not connected to land. 
And that was a decision that was made on scene at the time that 
resulted in the migrants being repatriated, sir.
    Senator Bill Nelson. Had you been Commandant, would you 
have corroborated and approved that legal reasoning?
    Admiral Allen. Well, sir, I think you need to take each one 
of these cases on an individual basis. And the reason I say 
that is, there are a lot of structures down there that are not 
connected to land, and, notwithstanding that that bridge had 
formerly been connected to land, we have migrants that are 
deposited on all forms of structures out there, some of which 
are very, very unsafe. And, as a general rule down there, 
anything that's not connected to land is not considered to be 
``dry feet,'' but there's a safety aspect to this, too, in the 
precarious position that some of these migrants have been 
placed in by smugglers.
    Senator Bill Nelson. I understand. But now--you know, the 
Coast Guard took them back--now a judge says something else. 
But they're under the control of Fidel Castro now. And so, it's 
entirely--if the law is as stated by this Federal judge, that 
they were illegally sent back to Cuba--in other words, that 
they were legally in the United States--they don't have much 
recourse now. It's all up to Fidel.
    Admiral Allen. Yes, sir. As I said, if there is a different 
policy guidance that comes out from the current adjudication 
that's underway, we will take our cue from that. We try not to 
make policy at the deck plates, but we will respond to whatever 
outcome of the judicial process that occurs.
    Senator Bill Nelson. Well, let me ask you, are you familiar 
with the process, when you pick up a rafter at sea and you do 
an investigation on the Coast Guard boat to determine if there 
is the fear of political persecution if returned, and you make 
that determination--you, the Coast Guard, make that 
determination--before you would bring them to the immigration 
authorities in the United States? Are you familiar with that 
process?
    Admiral Allen. Sir, that's not the process we use when we 
have migrants offshore. They're interviewed by an asylum 
prescreening officer that's provided to us by USCIS, and the 
determination on their status is made as a result of those 
interviews and interagency consultation. That is not a decision 
the Coast Guard makes, sir.
    Senator Bill Nelson. So, in the case of a fellow named de 
Valle, who was picked up in 2002 and was repatriated to Cuba 
and promptly thrown into jail, that was a determination made by 
the immigration department, not by the Coast Guard?
    Admiral Allen. No, sir. What happens is, there is an 
interview completed. There's a standard information package 
that's taken on all migrants. That information is sent up to 
Washington. There is an interagency discussion between all the 
respective Departments that have play in that, from a policy 
standpoint. Guidance then is provided back down to the 
operational commanders on scene, on whether or not the 
individual will be repatriated or possibly placed to Guantanamo 
Bay to potentially go to a third country. But the Coast Guard 
does not make that decision, sir.
    Senator Bill Nelson. And all of that is while the rafter is 
on the Coast Guard vehicle?
    Admiral Allen. Yes, sir.
    Senator Bill Nelson. Vessel.
    Admiral Allen. Yes, sir.
    Senator Bill Nelson. And was that the case with the 15?
    Admiral Allen. I would have to check on it. I was aware 
that there was an inquiry made today, and I believe we're still 
looking for information with USCIS on that. I don't have any 
current information, but we'd be glad to give you that 
information after the hearing, sir, once it's developed.
    Senator Bill Nelson. Well, since you're going to be the 
Commandant, these are going to be very poignant and pointed 
issues that are going to have to be addressed----
    Admiral Allen. Yes, sir.
    Senator Bill Nelson.--so that we don't get into this kind 
of situation, where someone is thrown back into the jaws of a 
dictator--that, in fact, has reason to believe that they are 
going to be politically persecuted.
    Admiral Allen. Yes, sir.
    Senator Bill Nelson. You're going to be in a direct 
position to make that happen.
    Admiral Allen. Yes, sir. I'm well aware of the 
responsibility, having been the District Commander down there. 
This is a very, very tough mission for the Coast Guard. It's 
gut-wrenching at times. And my commitment to you is, we'll do 
it with transparency in the light of the day with the people we 
serve, sir.
    Senator Bill Nelson. Thank you, Admiral.
    The Chairman. Does anybody----
    Senator Allen. Mr. Chairman?
    The Chairman.--Senator Allen, do you have an additional 
comment?
    Senator Allen. Yes. Listening to the questioning from 
Senator Nelson, the Coast Guard, these days, Mr. Chairman, 
has--it's probably more important than in its entire history of 
so many centuries in this country. We're in a war on terror. 
You have to be worrying about shipments, containers coming in. 
Additionally, you have to worry about stowaways and figuring 
out--you find out that some ship that's just leaving someplace 
hundreds of miles away has a stowaway, and you're positioning 
all that. I've visited the Coast Guard Headquarters in Norfolk, 
and it's amazing what you all have to do. And so diverse, so 
multifaceted--of course, worrying about hurricanes and storms 
and rescues, and then the refugee issue, as well. I think it is 
a bit unfair--I share Senator Nelson's concern. And I think our 
policy, insofar as those who are escaping for freedom from 
Castro's regime, is a policy that doesn't make a great deal of 
sense. It is not, though, in my view, the role of Admiral Allen 
to change that policy or ignore the policy or not follow the 
law. It is incumbent on us, as Members of Congress, and, in 
fact, the President and the Administration.
    And so, I don't know if we'd have enough votes to do it, 
but I think that that policy needs to be reviewed, as far as 
our standing strong for freedom, justice, and not ask an 
admiral to look the other way, ignore the laws. He has a duty, 
an oath he'll need to uphold. I'm confident in Admiral Allen, 
seeing his work in Katrina. You've brought the most credibility 
and discipline and structure and analysis to that chaos, from 
those of us watching all around the world.
    But I think--I just think it's a bit unfair to ask him to 
do that, when we ought to try to do it. Maybe we can work 
together. I know our colleague, Senator Martinez, is well aware 
of this, and has a very personal interest. And also, maybe get 
the Administration to use some common sense in this approach.
    But thank you for bringing the issue, but I don't--I think 
you've put him in an untenable position to say, ``Well, that's 
the law, but try to find a way of administering it 
differently.''
    Senator Bill Nelson. Would the Senator yield?
    Senator Allen. Sure.
    Senator Bill Nelson. If the Senator would notice, the 
Admiral has answered the question with regard to the Coast 
Guard decision of the repatriating of the 15 rafters in early 
January. He has stated that was a Coast Guard decision, after 
consultation with their legal counsel. Now that that issue has 
been brought to full fruition in a Federal court, where the 
court has said that the law was not followed, it's certainly 
worth bringing up that issue, on those kind of interpretations 
within the Coast Guard itself.
    Senator Allen. Admiral Allen, I don't--you can just watch 
as a referee.
    [Laughter.]
    The Chairman. Thank you very much, Admiral.
    Anyone have any further questions of the Admiral?
    [No response.]
    The Chairman. We appreciate your courtesy, Admiral. We will 
have an executive session on Thursday, March 16th. We'll do our 
best to see if we can get your nomination before that executive 
session. Thank you very much.
    Admiral Allen. Thank you, Mr. Chairman.
    The Chairman. Our next nominee is Robert McDowell, nominee 
to be a Commissioner of the Federal Communications Commission, 
to be introduced by Senator Allen.
    Senator Allen. Thank you. Rob, if you'd have a seat there.
    Mr. Chairman and colleagues on the Committee, it is my 
pleasure this afternoon to introduce to our committee Robert M. 
McDowell. Rob, and his bride, Jennifer, are longtime friends of 
mine and my wife, Susan. Rob is a native of Virginia. He and 
his bride, Jennifer, are raising their two children, Griffin 
and Mary-Shea, who are here with us, well-behaved little pups.
    [Laughter.]
    Senator Allen. And they're raising them on what's left of 
the farm that--in Northern Virginia where Rob grew up.
    I'm delighted that President Bush has nominated Rob to 
serve as Commissioner of the Federal Communications Commission. 
I am confident he'll do an outstanding job there. I'm going to 
put a whole statement in record.
    But let me highlight why I think he's extraordinarily 
qualified to serve on the FCC.
    Rob brings with him approximately 16 years of private 
sector experience in the communications industry. I think that 
experience alone makes him a tremendous asset to the 
Commission, from the perspective that he has had. He has long 
been a passionate individual about public service. When I was 
serving as Governor of Virginia, I actually appointed Rob to 
not one, but two different boards and commissions, one dealing 
with combating drugs in Virginia, and the other as a consumer 
perspective on the Board of Contractors. And he served on both 
of these boards with great distinction and integrity.
    And he spent, really, the last three decades serving his 
Commonwealth, his community, in a variety of different civic 
and charitable ways. Currently, he's chairman of the McLean 
Project for the Arts.
    He does have a stellar academic and professional 
background. He went to Duke University in undergraduate school, 
went to law school at the College of William and Mary, where 
Mr. Jefferson--Thomas Jefferson studied law. Seems to have a 
similar philosophy as Mr. Jefferson. After law school, he began 
practicing telecommunications law. He has served as outside 
counsel to numerous technology and telecom companies and trade 
associations.
    He is admitted to the Virginia State Bar. He's admitted to 
practice before the Supreme Court of the United States of 
America, the Supreme Court of Virginia, the U.S. Court of 
Appeals for the District of Columbia Circuit, the First 
Circuit, Fourth Circuit, and Fifth Circuit, and the U.S. 
District Court for the Eastern District of Virginia--a very 
competent lawyer.
    I can personally attest to his high exemplary character. 
And I think he's going to execute his duties as Commissioner 
with great ethics, with objectivity, and the utmost of 
professionalism. And I think he'll be striving in these--and 
you'll read his statement, and you'll hear it--but I think 
he'll be striving to make sure that all people in this country 
have the opportunity to benefit from the digital revolution. I 
think he'll be a devoted and a very pragmatic commissioner in 
the finest and fairest caliber with his knowledge and his 
experience.
    And I'm speaking for myself, but I know I'm also speaking 
on behalf of my colleague from Virginia, Senator John Warner, 
Congressman Tom Davis, Congressman Wolf, and other members of 
the Virginia delegation, in enthusiastically supporting the 
confirmation of President Bush's nomination of Rob McDowell on 
the Federal Communications Commission.
    And I'd like to put this as part of the record.
    And, if I could, may I ask the first question of the 
witness, Mr. Chairman, because I'm supposed to have left 10 
minutes ago? But if I could ask a question, the first question, 
if you would--leave of court, if it please the court----
    [Laughter.]
    Senator Allen.--ask the first question of the witness.
    The Chairman. If we say no, will you stay?
    [Laughter.]
    Senator Allen. No, I'd have to go.
    The Chairman. OK. Go ahead.
    [Laughter.]
    Senator Allen. Thank you.
    Rob, this is something I think needs to be addressed. I 
didn't--my statement--all the experience you've had in the last 
16 years, you have been an advocate for telecom entrepreneurs, 
for technology entrepreneurs. And you have substantive 
experience in the private sector. And I think that's going to 
be extremely valuable to the FCC, to have that perspective. And 
you may have more experience than any other of the 
commissioners, as well, in these areas. But I do think it's 
fair to ask you how you think you'll be able to adjudicate 
matters objectively and fairly, given your background. And I 
think it's very important that you address this point.
    Mr. McDowell. Thank you, Senator Allen. And--thank you, Mr. 
Chairman, and thank you, Senator Allen.
    Senator Allen. Then you're going to have to give your 
statement. This, I know, fouls everything up. But----
    Mr. McDowell. Should I answer the question first or----
    Senator Allen. Yes.
    Mr. McDowell. OK, excellent.
    It is a very sobering experience to have the President of 
the United States extend his hand and ask you to serve your 
country. The President is asking me to be a fair, judicious, 
impartial, thorough, and thoughtful adjudicator, arbiter, and 
policymaker. And, if confirmed, that is what I would strive, 
with every fiber, to be.
    The role of an FCC Commissioner, of course, is very 
different from the role I've had throughout my career, except 
for when I worked in the Virginia House of Delegates for your 
colleague Bob Andrews. I have been an advocate. And I have been 
an advocate on behalf of clients. And I like to think I've been 
an effective advocate. And perhaps some of my former opponents 
should be quizzed as to how effective I may have been at times.
    But many of the major issues I've worked on have been 
resolved. And, more importantly, it would be my duty as a 
commissioner to wipe the slate clean, to start from scratch and 
examine each issue de novo. I will prejudge nothing. And I ask 
that my ability to be impartial not be prejudged.
    At the same time, on top of all of that, the FCC has a 
system in place that governs conflicts and recusals. Throughout 
this nomination process, I have been in consultation with the 
White House Counsel's Office, the Office of Government Ethics, 
and, of course, the FCC's General Counsel's Office. And there 
are standards in place. This is nothing new. This is not a case 
of first impression. In fact, we recently had a commissioner 
serve on the Commission who came straight from a regulated 
company, a specific company, not just representing an industry, 
in general, who served with great distinction. And I believe 
that Commissioner, when all was said and done, was only recused 
from two different proceedings.
    So, throughout my tenure at the FCC, if confirmed, I will 
rely on the advice and counsel and opinions of the FCC's Office 
of General Counsel, and we will use the system and the process 
that's already in place.
    Senator Allen. Thank you, Mr. Chairman.
    [The prepared statement of Senator Allen follows:]

  Prepared Statement of Hon. George Allen, U.S. Senator from Virginia
    Mr. Chairman, Co-Chairman Inouye and my fellow Members of the 
Committee, good afternoon.
    It is a great pleasure for me to introduce to the Committee Robert 
M. McDowell. Rob and his bride, Jennifer, are longtime friends of mine 
and Susan's. Rob is a native Virginian and he and Jennifer are raising 
their two children, Griffin and Mary-Shea, on what's left of the 
Virginia farm where he grew up. I am delighted that President Bush has 
nominated Rob to serve as a Commissioner of the Federal Communications 
Commission. I am confident that he will do an outstanding job there.
    Rob is extraordinarily qualified to serve on the FCC. Rob brings 
with him nearly sixteen years of private sector experience in the 
communications industry. In fact, I believe he will have more private 
sector experience in communications than any other Commissioner now 
serving. That experience alone will make him a tremendous asset to the 
Commission.
    Rob has long been passionate about public service as well. In fact, 
when I was Governor of Virginia, I thought so highly of Rob's abilities 
that I appointed him to two state boards: the Governor's Advisory Board 
for a Safe and Drug-Free Virginia where he worked on substance abuse 
prevention, and the Virginia Board for Contractors where he looked out 
for consumers' interests. He served on both boards with great 
distinction. Rob has spent most of the past three decades serving his 
Commonwealth and community on numerous civic and charitable boards and 
commissions, and is currently Chairman of the Board of the McLean 
Project for the Arts.
    Rob comes before us today with a stellar academic and professional 
background that is perfectly suited for the FCC. In 1985, he was 
graduated cum laude from Duke University--but I have forgiven him for 
that. He made up for his youthful indiscretion of choosing a college 
outside of the Commonwealth by wisely earning his law degree from the 
same school where Thomas Jefferson studied law: the College of William 
and Mary's Marshall-Wythe School of Law. There, he was elected to the 
Order of the Barristers.
    In between Duke and William and Mary, Rob served as the chief 
legislative aide for a colleague of mine in the Virginia House of 
Delegates, Robert T. Andrews, for three legislative sessions. That's 
where Rob and I first met.
    Immediately after law school, Rob began practicing 
telecommunications law. Over the years, Rob has served as outside 
counsel to numerous technology and telecom companies and trade 
associations. He also served as Executive Vice President and General 
Counsel to America's Carriers Telecommunications Association (ACTA), 
before it merged with the Competitive Telecommunications Association 
(CompTel) in 1999, where he currently serves as Senior Vice President 
and Assistant General Counsel. There, he has led CompTel's advocacy 
efforts before the legislative and executive branches. During his years 
in the private sector, he served as a representative to the North 
American Numbering Council and served on the Board of Directors of the 
North American Numbering Plan Billing and Collection, Inc.--both of 
which are at the heart of the management of our Nation's telephone 
numbers.
    Needless to say, Rob is a member of the Virginia State Bar, and is 
also admitted to practice before the Supreme Court of the United States 
of America; the Supreme Court of Virginia; the United States Courts of 
Appeals for the District of Columbia Circuit, First Circuit, Fourth 
Circuit and Fifth Circuit; and United States District Court for the 
Eastern District of Virginia.
    Having known Rob for so long, I can personally attest that he is of 
the highest moral character and will execute his duties as a 
Commissioner ethically, objectively and with the utmost 
professionalism. He will not pre-judge any matter brought before him. 
Rob will also bring with him our shared common-sense Jeffersonian 
conservatism. Rob will work tirelessly to ensure that communications 
entrepreneurs are unfettered by needless government regulations while 
also striving to ensure that all American consumers can benefit from 
the Digital Revolution. In short, he will be a devoted and pragmatic 
de-regulator of the finest and fairest caliber.
    Accordingly, I hope you will join me, Senator Warner, Congressman 
Davis, Congressman Wolf, and other Members of the Virginia 
Congressional delegation, in enthusiastically supporting a speedy 
confirmation of President Bush's nomination of Rob McDowell to the 
Federal Communications Commission.

    The Chairman. Thank you, sir. Have a nice weekend.
    [Laughter.]
    The Chairman. Mr. McDowell, we'd be pleased if you'd 
proceed with your statement. We'll print it in full in the 
record, but if you wish to summarize it, you may.

        STATEMENT OF ROBERT M. McDOWELL, NOMINEE TO BE 
            A MEMBER OF THE FEDERAL COMMUNICATIONS 
                           COMMISSION

    Mr. McDowell. Thank you, Mr. Chairman and Members of the 
Committee. And it is a great privilege to be able to appear 
before you here today.
    I would, if I could indulge the Chairman, like to introduce 
some family members.
    The Chairman. Oh, pardon me. I thought the Senator did 
that. Please do, though.
    Mr. McDowell. Absolutely.
    First, the wind in my sails, my beautiful bride, Jennifer. 
And I could not get to this point without her love and support 
and--appreciate everything she's done. Next to her is my 
beautiful daughter, who wants you to know that today she is 4 
years and 5 months old, today----
    [Laughter.]
    Mr. McDowell.--Mary-Shea Virginia McDowell. Next to her is 
Griffin Malcolm McDowell, who is 6 years and 8 months, almost. 
Next to him is my beautiful sister, Tina, who does not want me 
to reveal her age, because she's a brown belt in karate.
    [Laughter.]
    Mr. McDowell. My father, Bart McDowell, whose age I will 
also not reveal, who, by the way, was raised on a ranch on the 
Tex-Mex border, I'd like to note, without phone service, and 
went on to be a naval officer in World War II, and then on to a 
distinguished career as a senior editor of National Geographic 
magazine.
    We are without my mom today, who just passed away last July 
and, of course, is unable to witness this day, at least from an 
earthly perspective.
    I have two brothers. My oldest brother, Kelly McDowell, is 
the mayor of El Segundo, California. And if you've ever flown 
into Los Angeles Airport, you've flown into my brother's town, 
and my other brother, Josh, who's on the staff of Texas A&M on 
their Corpus Christi campus.
    I'd also like to thank Commissioner Jonathan Adelstein for 
appearing today. And it's terrific to have you here. I got to 
know him a bit when he was with Senator Daschle. And I 
appreciate the bipartisan support, and hopefully we can 
reciprocate.
    I'm deeply honored by President Bush's decision to nominate 
me to serve as a Commissioner of the Federal Communications 
Commission. And over the past few weeks, I've had the pleasure 
of meeting with many Members of the Committee. And I thank all 
of you for taking the time out of your busy schedules to share 
your thoughts about communications policy and the FCC with me. 
And, if confirmed, I look forward to continuing our dialogue.
    But this coming October 19th, in Virginia, we will 
commemorate the 225th anniversary of the Americans' victory 
over the British at Yorktown. And this battle effectively ended 
the war, where a ragtag band of freedom fighters defeated the 
largest superpower in the world. On that crisp autumn day, as 
the vanquished British troops withdrew from the battlefield, 
they marched to the tune of ``The World Turned Upside Down.'' 
And, for the British, the old world had been turned upside 
down. But for freedom and democracy, the new world had been 
turned rightside up.
    George Washington and his fellow patriots won, largely 
because of their belief that the dissemination of self-evident 
truths could shatter the walls of tyranny. They lay the 
foundation of a new nation built upon the twin cornerstones of 
free markets and free ideas for all. At the heart of the ideals 
of the fledgling United States was a profound commitment to the 
freedom of speech, the freedom to communicate.
    No agency has more of an effect on the preservation and 
promotion of this freedom than the Federal Communications 
Commission. If confirmed, I solemnly pledge to be true to those 
founding principles, to work tirelessly to promote free markets 
and the free expression of ideas.
    With the advent of new technologies, the old world of 
communications has been turned upside down. But these advances 
have turned the new world rightside up for freedom, democracy, 
and capitalism.
    Long ago, Thomas Jefferson envisioned the benefits brought 
forth by the free flow of information when he wrote, 
``Enlighten the people, and tyranny and oppressions of body and 
mind will vanish like evil spirits at the dawn of day.'' 
Jefferson's words were nearly prophetic in predicting the 
digital revolution.
    Today, American consumers are more empowered with 
information than ever before, thanks to brave and brilliant 
entrepreneurs, increased competition, and less government 
regulation. But there is more to do.
    If confirmed, I will commit myself to promoting competition 
and investment in all markets, clearing the cumbersome 
underbrush of unnecessary government regulation, encouraging 
private sector solutions to many of the challenges facing the 
communications industry, and removing barriers to entry. All 
Americans should be able to benefit from the digital 
revolution, and the FCC should strive to help American 
consumers realize that goal.
    If confirmed, as Senator Allen pointed out, I will bring to 
the Commission nearly 16 years of private sector experience in 
the communications industry, and, with your approval, I will 
also bring with me a strong passion for bipartisan public 
service.
    In my career, in addition to counseling technology 
entrepreneurs, I have served as a legislative aide to a member 
of the Virginia General Assembly, actively worked on bipartisan 
statutory boards as appointed by two Virginia Governors, and 
led efforts to make my community a better place to live, work, 
and raise a family.
    If confirmed, I will use this experience to help me 
approach each issue that comes before the Commission with 
energy, impartiality, and thoughtfulness. I will endeavor to 
keep the spirit of Yorktown alive by working every day toward 
enhancing the lives and liberty of all Americans.
    And let me just take a quick second to state my opinion 
about the four current Commissioners of the FCC.
    The Chairman. Mr. McDowell, I think that the Senator has to 
leave. If you wouldn't mind, he wants to ask you a question. 
You can continue----
    Mr. McDowell. Fire away, Senator.
    Senator Dorgan. I'd be content for him to finish. I did 
want to--I didn't want to have to leave at 4 o'clock without 
saying that I support Robert McDowell's nomination.
    I think the President has sent us a nomination that is a 
solid nomination of someone well qualified. But I wanted to 
say, I had a chance to meet with Mr. McDowell. Mr. Chairman, I 
think this Commission now, with a full complement of 
commissioners, will be making decisions that will have a 
profound impact on what the American people see, hear, and read 
in the coming years, because they're going to be confronted 
with this issue of ownership limits. And there's not much more 
important, in my judgment, in our government than getting this 
right. The Commission has sunk its teeth into it before, been 
thwarted by the courts, and thwarted by the Congress. And many 
of us have a profound concern about what might or might not 
happen here.
    I'm not going to ask you specific questions about it, 
because we had a long talk in my office about that. But 
concentration in ownership of the media, including television, 
radio, and the proposals for cross-ownership with newspapers, 
it's a very serious issue, because it will have a significant 
impact on what people in this democracy can see, hear, and 
read, what information they get. And the foundation for 
democratic self-government is basic information of the American 
people.
    So, I did come because I wanted to say that I had a long 
conversation with Mr. McDowell. I think the President has made 
a good choice. And I'm really especially pleased we're finally 
going to have an FCC with all five members seated, present, and 
willing to debate and vote on issues. That's very important for 
this country.
    So, Mr. McDowell, thank you. I wish you well, look forward 
to working with you.
    Mr. Chairman, thank you for the courtesy.
    The Chairman. Thank you, Senator.
    Mr. McDowell. Thank you, Senator.
    The Chairman. If you'd finish your statement, it will 
appear in the record as though you completed it without 
interruption.
    Mr. McDowell. Yes, sir. We're almost done.
    But I just want to say that the four current Commissioners, 
as led by Chairman Martin, are, in my opinion, among the most 
talented and thoughtful people to ever have served on the FCC. 
And, if confirmed, I would be honored and humbled to join them.
    And that concludes my brief statement. I'm looking forward 
to any questions you might have.
    [The prepared statement and biographical information of Mr. 
McDowell follow:]

Prepared Statement of Robert M. McDowell, Nominee to be a Member of the 
                   Federal Communications Commission

    Mr. Chairman, Co-Chairman Inouye and Members of the Committee, it 
is a privilege to be able to appear before you today.
    Please allow me to thank my mentors and friends from the Virginia 
delegation, Senator Allen, and Congressman Davis, for their generous 
remarks. I also thank Senator Warner and Congressman Wolf for their 
kind statements submitted for the record. I would not be here today 
were it not for my family seated behind me: my bride, Jennifer; my son, 
Griffin Malcolm; my daughter, Mary-Shea Virginia, as well as my father 
and sister. Thank you for your love and support. Poignantly, our 
thoughts are with my mom, Martha Shea McDowell, who passed away just 
last July and is unable to witness this day, at least from an earthly 
perspective.
    I am deeply honored by President Bush's decision to nominate me to 
serve as a Commissioner of the Federal Communications Commission. Over 
the past few weeks, I have had the pleasure of meeting with many 
Members of the Committee, and I thank all of you for taking time out of 
your busy schedules to share your thoughts about communications policy 
and the FCC with me. If confirmed, I look forward to continuing our 
dialogue.
    This coming October 19, in Virginia, we will commemorate the 225th 
anniversary of the Americans' victory over the British at Yorktown. 
This battle effectively ended the war where a rag-tag band of freedom 
fighters defeated the largest superpower in the world. On that crisp 
autumn day, as the vanquished British troops withdrew from the 
battlefield, they marched to the tune of ``The World Turned Upside 
Down.'' For the British, the Old World had been turned upside down. But 
for freedom and democracy, the New World had been turned right side up. 
George Washington and his fellow patriots won largely because of their 
belief that the dissemination of self-evident truths could shatter the 
walls of tyranny. They had laid the foundation of a new nation built 
upon the twin cornerstones of free markets and free ideas--for all.
    At the heart of the ideals of the fledgling United States was a 
profound commitment to the freedom of speech--the freedom to 
communicate. No agency has more of an effect on the preservation and 
promotion of this freedom than the Federal Communications Commission. 
If confirmed, I solemnly pledge to be true to those founding 
principles--to work tirelessly to promote free markets and the free 
expression of ideas.
    With the advent of new technologies, the old world of 
communications has been ``turned upside down.'' But these advances have 
turned the new world right side up for freedom, democracy and 
capitalism. Long ago, Thomas Jefferson envisioned the benefits brought 
forth by the free flow of information when he wrote, ``Enlighten the 
people . . . and tyranny and oppressions of body and mind will vanish 
like evil spirits at the dawn of day.'' \1\ Jefferson's words were 
nearly prophetic in predicting the Digital Revolution. Today, American 
consumers are more empowered with information than ever before, thanks 
to brave and brilliant entrepreneurs, increased competition and less 
government regulation. But there is more to do.
---------------------------------------------------------------------------
    \1\ Thomas Jefferson to Pierre Samuel Dupont de Nemours, 1816.
---------------------------------------------------------------------------
    If confirmed, I will commit myself to:

  <bullet> promoting competition and investment in all markets;

  <bullet> clearing the cumbersome underbrush of unnecessary government 
        regulation;

  <bullet> encouraging private sector solutions to many of the 
        challenges facing the communications industry; and

  <bullet> removing barriers to entry.

    All Americans should be able to benefit from the Digital 
Revolution, and the FCC should strive to help American consumers 
realize that goal.
    If confirmed, I will bring to the Commission nearly sixteen years 
of private sector experience in the communications industry. And, with 
your approval, I will also bring with me a strong passion for 
bipartisan public service. In my career, in addition to counseling 
technology entrepreneurs, I have served as a legislative aide to a 
Member of the Virginia General Assembly, actively worked on bipartisan 
statutory boards as appointed by two Virginia governors, and led 
efforts to make my community a better place to live, work and raise a 
family. If confirmed, I will use this experience to help me approach 
each issue that comes before the Commission with energy, impartiality 
and thoughtfulness. I will endeavor to keep the spirit of Yorktown 
alive by working every day toward enhancing the lives and liberty of 
all Americans.
    In my opinion, the four current Commissioners, as led by Chairman 
Martin, are among the most talented and thoughtful people ever to have 
served on the FCC. And, if confirmed, I would be honored and humbled to 
join them.
    Mr. Chairman and Co-Chairman Inouye, thank you for the opportunity 
to appear before you today. That concludes my brief statement and I 
look forward to answering any questions you may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Robert 
Malcolm McDowell. No other names used.
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: February 6, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
    Office: COMPTEL, 1900 M Street, NW., Suite 800, Washington, DC.

    5. Date and Place of Birth: June 13, 1963, Washington, DC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Jennifer Griffin McDowell, homemaker, part-time 
        employment--The Dandelion Patch stationery store, Vienna, VA; 
        children: Griffin Malcolm McDowell (6), Mary-Shea Virginia 
        McDowell (4).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Duke University, B.A., 1985.
        College of William and Mary, Marshall-Wythe School of Law, 
        J.D., 1990.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        1999-present, Competitive Telecommunications Association 
        (CompTel), Washington, D.C. Senior Vice President and Assistant 
        General Counsel.

        1998-1999, America's Carriers Telecommunications Association 
        (ACTA), McLean, Virginia. Executive Vice President and General 
        Counsel.
        1993-1998, Helein & Associates, P.C., Washington. D.C., McLean, 
        Virginia. Senior Attorney.

        1990-1993, Arter & Hadden, Washington. D.C. Associate Attorney.

        1985-1987, Virginia House of Delegates, Richmond, VA. Chief 
        Legislative Aide to a Member of the House of Delegates.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        1999-2000, North American Numbering Council.

        1999-2000, Board of Directors, North American Numbering Plan 
        Billing and Collection, Inc.

        1996-2004, Virginia Board for Contractors, Appointed by 
        Governor George Allen (1996); reappointed by Governor Jim 
        Gilmore (2000).

        1994-1995, Governor's Advisory Board for a Safe and Drug-Free 
        Virginia, Appointee of Governor George Allen.

        1994-present, McLean Project for the Arts, McLean, VA. 
        Chairman, Board of Directors (2005-present), Director and Pro 
        Bono Counsel (1994-2005).

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        2005-present, Co-Trustee (with spouse) of McDowell Family Trust 
        (estate planning vehicle for myself, my spouse and our 
        children).

        2005-present, Successor Trustee, Martha Louise Shea McDowell 
        Revocable Trust.

        1999-present, Senior Vice President & Assistant General 
        Counsel, Competitive Telecommunications Association (CompTel).

        2005-2006, CompTel Political Action Committee (CompTel-PAC), 
        Treasurer.

        1994-present, Chairman of the Board, McLean Project for the 
        Arts (501(c)(3)), McLean, Virginia (2005-present); Vice 
        President (2002-2005); Director (1994-present).

        1996-2004, Member, Virginia Board for Contractors (statutory 
        board--gubernatorial appointee).

        2004, Volunteer Advance Team Member, Bush-Cheney 2004.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        1999-2000, North American Numbering Council.

        1999-2000, Board of Directors, North American Numbering Plan 
        Billing and Collection, Inc.

        1999-2005, Republican Majority Fund, Republican National 
        Committee, National Finance Committee.

        1996-2004, Virginia Board for Contractors, Gubernatorial 
        Appointee.

        1994-1995, Governor's Advisory Board for a Safe and Drug-Free 
        Virginia, Appointee of Governor George Allen.

        1997-1999, Friends of the Red Cross, National Capital Chapter. 
        Washington, D.C. Corporate Donations Committee.

        1996-2004, Virginia Board for Contractors, Appointed by 
        Governor George Allen (1996); reappointed by Governor Jim 
        Gilmore (2000).

        1995-present, Northern Virginia Republican Business Forum.

        1994-present, McLean Project for the Arts, McLean, VA. 
        Chairman, Board of Directors (2005-present), Director and Pro 
        Bono Counsel (1994-2005).

        1991-present, Federal Communications Bar Association.

        1990-present, Virginia State Bar.

        1990-2005, Fairfax County Republican Committee.

        1990-1996, Republican Club of Greater Reston.

        Periodically, Duke University Club of Washington.

        Nearly life-long, Our Lady of Good Counsel Catholic Church, 
        Vienna, Virginia.

        Nearly life-long, Cardinal Hill Swim and Racquet Club, Vienna, 
        Virginia.

    No organization I have belonged to discriminates in any way of 
which I am aware.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt.
    I have been a candidate for public office twice. The first 
candidacy was for the Virginia Senate (32nd District) in 1995. The 
second candidacy was for the Virginia House of Delegates (35th 
District) in 2003. Neither campaign has any debt.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    To the best of my ability and knowledge, my research reveals the 
following:

        Virginians for Jerry Kilgore (Governor--2005), $700.
        Jim Hyland for Delegate (2005), $500.
        George W. Bush for President, Inc., (1999), $950.
        Gilmore for Governor (1997), $1,500 (in-kind and cash).

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Order of the Barristers, College of William and Mary, Marshall-
        Wythe School of Law.

        Cum Laude, Duke University.

        Dean's List, Duke University.

        Virginia Board for Contractors, Resolution honoring 
        distinguished service (June, 2005).

        Named ``Top Telecom Lobbyist'' by Telecom Policy Report, March, 
        2004.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have not authored any books or articles other than the following 
articles for telecommunications trade publications:

        ``It's Time to Regulate LEC Billing,'' Phone+ Magazine, 
        February, 1999 ``Apocalypse 1998: RBOC `Political Pressure' in 
        Washington,'' Phone+ Magazine, April, 1998; ``Protecting 
        Consumers or Slamming the Door On Competition? How Smaller 
        Carriers Will Fare Under Proposed Anti-Slamming Rules.'' Phone+ 
        Magazine, October, 1997; ``Are the LECs Choking-Off Casual 
        Calling?'' Phone+ Magazine, May, 1997.

    As a political candidate for the Virginia General Assembly in 1995 
and 2003, I gave literally scores, if not hundreds, of political 
speeches. I do not have a record of the exact date or text of any 
speech. The topics of those speeches included, but were not always 
limited to: taxes, transportation, education, environment, criminal 
justice and other social issues.
    In my professional career, I have spoken several times on panels at 
trade shows on telecommunications issues. After an extensive search, I 
have found many of the most recent records of the following speeches 
and panels I have moderated at conventions over the past seven years. 
No other records of additional speeches can be found; however, I'm sure 
that I have appeared on other panels and have given talks at continuing 
legal education seminars as well as investment banking analysts' 
meetings about telecommunications regulatory issues and related 
legislative matters. To the best of my ability, here is a summary of 
what I have found:

        October, 1999, at a CompTel convention: ``Wiring the Summit: 
        RBOC Long Distance Entry and the Future of UNEs''
        The Telecommunications Act is well over three years old, but 
        the industry is still waiting for a regional Bell operating 
        company to win approval of its application to provide in-region 
        long-distance services. Why is it taking so long? What are the 
        technical and policy issues facing the RBOCs and their 
        potential competitors, and what progress is being made to 
        resolve some of these long-standing problems? Don't miss this 
        informative session.

        June, 2000, at a CompTel legislative conference: ``Fact vs. 
        Fiction: Discussion of `Broadband' Legislation''
        Industry experts will discuss the status of the deployment of 
        broadband services, the effect of the Telecommunications Act of 
        1996 on advanced services rollout and their views on pending 
        legislation that would dramatically change the ground rules. 
        Don't miss this discussion of the hottest telecom policy issue 
        in years!

        February, 2001, at a CompTel convention: ``On-line Privacy: The 
        Next Great Debate''
        Consumer groups and Congress are beginning to take a close, 
        careful look at how the Internet revolution is affecting users' 
        privacy. What are the rules? And how are they likely to change? 
        Find out how privacy concerns and policies will affect your 
        business by attending this informative panel discussion.

        April, 2001, at a CompTel legislative conference: ``Fact vs. 
        Fiction: Discussion of `Broadband' Legislation''
        Industry experts will discuss the status of the deployment of 
        broadband services, the effect of the Telecommunications Act of 
        1996 on advanced services rollout and their views on pending 
        legislation that would dramatically change the ground rules. 
        Don't miss this discussion of the hottest telecom policy issue 
        in years!

        April, 2002, at a CompTel legislative conference: ``Fact vs. 
        Fiction: Discussion of `Broadband' Legislation''
        Learn the latest about the status of the deployment of 
        broadband services, the effect of the Telecommunications Act of 
        1996 on advanced services rollout and pending legislation that 
        would dramatically change the ground rules. Don't miss this 
        discussion of the hottest telecom policy issue in years!

        April, 2003, at a CompTel legislative conference: ``The Past as 
        Prologue: The History of the Telecom Policy Wars and Their 
        Relevance To Today''
        Why are current telecom policy battles so controversial? How 
        did we get here? What are those TV ads all about anyway? Learn 
        the answers to these and other important questions during this 
        eye-opening presentation.

        February, 2003, at a CompTel convention: ``General Session: the 
        Impact of Public Policy Changes on Your Business''
        Actions taken by legislators and regulators in Washington, D.C. 
        and the states can have a significant impact on how competitive 
        services providers can execute their business plans. Find out 
        from this esteemed panel how recent FCC decisions, pending 
        proceedings and action on Capitol Hill and in the states could 
        impact your bottom line.

        February, 2004, at a CompTel convention: ``General Session: The 
        Battle in Washington to Preserve Competition''
        The ILECs and their allies have stepped up their lobbying blitz 
        in Washington to eliminate competition. Learn more about their 
        plans and hear how the CompTel/ASCENT Alliance and its members 
        are responding to this latest threat to competition.

        April, 2004, at a CompTel legislative conference: ``The Past as 
        Prologue: The History of the Telecom Policy Wars and Their 
        Relevance To Today''
        Why are current telecom policy battles so controversial? How 
        did we get here? What are those TV ads all about anyway? Learn 
        the answers to these and other important questions during this 
        eye-opening presentation.

        February, 2005, at a CompTel Convention: ``Rewriting the 
        Telecom Act of 1996: The Battleground for Broadband''
        From measures to reform universal service funding and 
        intercarrier compensation to defining VoIP services. Congress 
        is teeing up issues that will impact the future of broadband 
        networks and IP-enabled services. Political and industry 
        pundits will share their perspectives on the battle to rewrite 
        the 1996 Telecom Act.

        April, 2005, at a CompTel legislative conference: 
        ``Chokepoints: The History of Telecom's Future''
        To understand today's debates it is essential to know the 
        history of the telecom industry. This eye-opening session will 
        give you the background you need to be able to determine myths 
        from fact in ongoing policy struggles.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    The only time I have testified before Congress was before the House 
Telecommunications Subcommittee in June of 1998 to testify on behalf of 
my client, America's Carriers Telecommunications Association (ACTA), on 
the issue of long-distance slamming (the unauthorized switching of long 
distance carriers).

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    To the best of my understanding, the only financial arrangement 
will be the continuation of my COMPTEL 401(k) account, which is 
invested entirely in the Northern Trust Select Equity Fund. That fund 
can be rolled over to another account, if necessary.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I plan to retain my position on the Board of Directors of the 
McLean Project for the Arts, a nonprofit, charitable 501(c)(3) 
organization. The Office of White House Counsel and the FCC's Office of 
General Counsel have both reviewed this affiliation and have concurred 
in my remaining on the board should my nomination to the FCC be 
confirmed by the Senate.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In my position as Senior Vice President and Assistant General 
Counsel of CompTel, I may have conflicts concerning matters before the 
FCC to which CompTel was a party.
    The Martha Louise Shea McDowell Revocable Trust (``Trust'') was 
created on January 26, 2005, as an estate management vehicle. Martha 
McDowell, my mother, died on July 6, 2005. The Trust designated Robert 
McDowell to be successor trustee upon her death. The purpose of the 
Trust is to distribute the Trust's assets to Trust beneficiaries. All 
assets will be distributed as soon as practicable, after IRS approval, 
and the Trust will be subsequently dissolved.
    The current assets held by the Trust that could create a potential 
conflict of interest are: roughly $24,000 held in a General Electric 
debenture, and approximately $10,000 in a Southwestern Bell bond. Both 
instruments are to be distributed to the Trust beneficiaries pursuant 
to the instructions of the Trust.
    To the best of my knowledge, no other potential conflicts are 
apparent.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Other than the relationships with CompTel and the Martha McDowell 
Trust as described above, to the best of my ability I do not know of 
another existing potential conflict.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As a government affairs professional for CompTel, I have been 
engaged in advocacy regarding several pieces of legislation, appellate 
cases and other matters involving telecommunications policy.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Regarding the Trust's assets, I will be distributing the Trust's 
assets pursuant to the Trust's instructions, thus alleviating any 
potential conflict. Regarding my possible CompTel conflicts, as 
Commissioner, if confirmed, I would, of course, work closely with the 
FCC's Office of General Counsel to ensure strict adherence to all laws, 
rules, guidelines and policies governing such conflicts, including, but 
not limited to: recusal for one year from all particular matters 
involving specific matters to which CompTel has been a party or 
representative of other parties before the Commission; recusal from any 
matter before the Commission in which I may have been involved while 
employed by CompTel; and recusal from any other matter where an 
appearance of conflict may exist.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have not been a party to any litigation or administrative 
proceeding in my personal capacity. However, in my professional 
capacity as an attorney in private practice and as in-house counsel, I 
have been an attorney of record in numerous cases before both courts 
and administrative agencies.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None of which I am aware.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race. religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Well, thank you very much.
    And I was going to note the presence of Commissioner 
Adelstein. He does attend these hearings, and we welcome his 
participation--silently, however.
    [Laughter.]
    The Chairman. We held some hearings, Mr. McDowell, that 
were targeted at universal service and we've been working on 
general rural telecommunications issues. Do you have any 
statement you'd like to make about your vision concerning how 
the FCC can keep rural America connected to this digital 
revolution?
    Mr. McDowell. Senator Stevens, that will be a major 
priority for me. My father, as I mentioned before, was raised 
on a ranch on the Tex-Mex border, and he used to tell stories, 
and still does, about how my grandfather would take the car 
battery out of the car every night, because not only did they 
not have phone service, they did not have electricity, which 
was not unusual in that time. And to stay connected to the rest 
of the world, they would hook the car battery up to the radio 
inside the house. Despite that, he went on to become a senior 
editor of National Geographic. But other folks didn't have the 
same opportunities, perhaps, that he had. So, keeping rural 
America connected is very real, very front and center for the 
McDowells.
    What we have to, of course, focus on is the shrinking pool 
for the contribution mechanism, and work on shoring that up, 
and moving forward to strengthen that system, and making sure 
that folks who live on tribal lands or in rural America or in 
high-cost areas, poor inner-cities, et cetera, have the same 
opportunity to access the information enjoyed by others in more 
fortunate areas.
    So, as the Commission examines universal service, I will be 
making that a priority.
    The Chairman. Thank you very much.
    Senator Smith was not able to be here, but he sent a 
question and asked me to put it to you.
    His question is this, ``For those of us in Oregon who have 
been trying to attract a baseball team for years, we're envious 
of the fans in cities that actually have a team. I am, however, 
becoming more concerned about a tactic that cable companies are 
using to limit viewership of local sports programming. First, 
Cablevision stopped broadcast of Yankee games until they got a 
deal they wanted. Then Comcast did the same thing in 
Philadelphia with the Phillies, and in Washington, D.C. with 
the Nationals.''
    This is Senator Smith's question. ``I understand that 
business negotiations can be tough, but blocking game 
broadcasts has raised real concerns. How would you address 
situations like this from your position on the FCC?''
    Mr. McDowell. Well, Senator, that's an important issue, and 
it's a personal one to us. We would like to see some Nationals 
games here locally. We're certainly supporters of our local 
team.
    Coming from the private sector, I will first look to 
private sector solutions to resolve issues such as that. And I 
would prefer to see voluntary agreements between the parties at 
hand. There may be ongoing proceedings, or future proceedings, 
at the Commission that could examine this. I'm not exactly sure 
of the Commission's authority in those areas, under Title 6, 
Section 628, for instance. I'd have to take a closer look at 
that. But the first line of defense, I think, should be a 
private sector solution. If the Commission can encourage a 
private sector solution, I would look for such an avenue.
    The Chairman. As I mentioned, we welcome Commissioner 
Adelstein to be with us today. But if you were already 
confirmed, you both couldn't be here. Are you familiar with 
some of the rules that have been adopted in the past concerning 
the activities of the Commission? Are you familiar with that 
rule, particularly about how many commissioners can be present 
at any one time at a public gathering?
    Mr. McDowell. I'm roughly familiar with that. I think the 
answer might be two of us. But I can double check that.
    The Chairman. Some of us are very disburbed about that, 
too. I think we need some opinions from the Commission about 
what should be done to modernize your procedures so that you 
can function as a modern body. There was a time in the past 
when Senator Goldwater and I decided that there were too many 
commissioners, and we asked the Congress to remove two. Did you 
know that? That was because of the problem we had to get an 
agreement among the seven.
    You've said you will be bipartisan. Can you tell us a 
little bit more about your attitude regarding bipartisanship?
    Mr. McDowell. Well, Senator, throughout my career, I have 
learned that these issues are not necessarily, for the most 
part, partisan issues. I have worked in a bipartisan manner as 
an advocate, and would continue to take that spirit to the 
Commission with me, if confirmed.
    I have served on statutory boards, appointed by two 
Governors of Virginia, that were bipartisan. And I worked well 
with folks of the other party, again, on issues that 
historically have not necessarily been partisan issues, for the 
most part.
    So, I am looking forward to that. There's not a partisan 
gigabyte. There is not a partisan megahertz. So, I don't 
anticipate looking at those issues through a partisan lens.
    The Chairman. Now, you've had a substantial relationship 
with some of the communications interests. And I note in your 
statement that you indicate you do intend to very zealously 
apply the conflict-of-interest concepts, and will disqualify 
yourself in any matter that you've had connection with before, 
or at any entity you've had before. Can you elaborate on that a 
little bit?
    Mr. McDowell. Well, I will certainly rely on the opinion of 
the Office of the General Counsel of the FCC, and they do have 
a system in place, and rules in place. Conflicts at the FCC are 
not necessarily anything new. We had a commissioner recently, 
who came from the private sector from a regulated company, who 
ended up on only being recused from two particular matters, as 
I recall. So, I will consult with the Office of General Counsel 
on any matter where CompTel may have been a party, or where 
CompTel's members may have been a party, to make sure there's 
not even the appearance of a conflict of interest.
    The Chairman. Have you made an appearance before the FCC as 
an advocate?
    Mr. McDowell. Not in several years, Mr. Chairman. My 
primary bailiwick at CompTel for the past 6 or 7 years has been 
the legislative and executive branch. We have other folks at 
CompTel who worked the FCC, for the most part. And my name has 
not appeared on a pleading in several years, nor have I been 
formulating or writing pleadings, nor have I been substantially 
involved in any pleadings before the Commission in quite some 
time.
    The Chairman. Very well. Well, I don't know whether other 
Members have questions they wish to submit. If they do, I would 
urge you to respond to them as rapidly as possible, because we 
will also try to get this nomination on the executive session's 
agenda for March 16th.
    Thank you very much. And we thank your family for coming to 
join us.
    Mr. McDowell. Thank you, Mr. Chairman.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John Ensign to 
                       Vice Admiral Thad W. Allen

Mission and Organizational Culture of FEMA Within the Department of 
        Homeland Security
    Question 1. Since the bill creating the Department of Homeland 
Security (DHS) was signed into law on November 25, 2002, there have 
been concerns raised that the mission of the Federal Emergency 
Management Agency (FEMA) has been retooled to primarily focus on 
responding to terrorist attacks and not natural disasters.
    Has FEMA's culture changed since its integration into the 
Department of Homeland Security?
    Answer. FEMA's culture has not changed since joining the Department 
of Homeland Security in March 2003. In fact, FEMA's culture and 
capabilities have only been enhanced by the additional support and 
resources provided by the Department. FEMA continues to be dedicated to 
serving people and communities impacted by natural or man-made 
disasters.

    Question 2. How has the organization managed the twin mission 
responsibility of developing the capability to respond effectively, and 
with appropriate timeliness, to both natural disasters and terrorist 
attacks?
    Answer. FEMA and the Department of Homeland Security have adopted 
an ``all-hazards'' approach to disasters and emergencies because many 
of the response functions and consequences are the same regardless of 
whether the disaster is due to a natural disaster or a terrorist event. 
By using this ``all-hazards'' approach, preparation for one type of 
emergency can help all levels of government be better prepared for 
other kinds of emergencies.
    In the post-Cold War world, FEMA recognizes that the U.S. is not 
only at risk from natural and technological hazards, but also from new 
and emerging terrorism threats, most of which are unconventional and 
asymmetric. These threats can take many forms and have the potential to 
involve destructive chemical, biological, radiological and nuclear 
weapons intended to wreak unprecedented damage on the Nation's 
population, economy, and quality of life. The past two years have also 
demonstrated the destructiveness of natural disasters.
    Since its establishment in March 2003, DHS has the preeminent role 
in managing and coordinating the domestic response to all types of 
disasters, including terrorism events, and has developed the National 
Incident Management System (NIMS) to ensure that responders from 
different jurisdictions (Federal, State, local, tribal, international, 
non-governmental organizations, and the private sector) and disciplines 
(command, operations, planning, logistics, finance and administration, 
emergency services, human services, and infrastructure support) can 
work together better to respond to natural disasters and emergencies, 
including acts of terrorism. The NIMS provides a consistent doctrinal 
framework for incident management at all jurisdictional levels, 
regardless of the cause, size, or complexity of the incident.
    The NIMS benefits include a unified approach to incident 
management; standard command and management structures; and emphasis on 
preparedness, mutual aid and resource management.
    The December 2004 National Response Plan (NRP) provides the 
coordinating structures and protocols, either partially or fully, for 
responding to specific Incidents of National Significance and provides 
the mechanisms for the coordination and implementation of a wide 
variety of incident management and emergency assistance activities. 
Included in these activities are Federal support to State, local, and 
tribal authorities; interaction with nongovernmental, private donor, 
and private sector organizations; and the coordinated, direct exercise 
of Federal authorities, when appropriate. The NRP itself creates no new 
authorities, but it serves to unify and enhance the incident management 
capabilities and resources of individual agencies and organizations 
acting under their own authorities in response to a wide array of 
potential threats and hazards.
    FEMA is the DHS component charged with and responsible for leading 
and coordinating all-hazards incident management for Incidents of 
National Significance and other disasters when and if a Presidential 
disaster or emergency is declared under the Stafford Act. FEMA's core 
mission is to ensure the timely, efficient, and effective delivery of 
goods and services to victims, through FEMA's Federal, State, local, 
tribal, and private sector partners; to alleviate the suffering and 
damage which result from Incidents of National Significance and 
disasters regardless of the cause of the disaster; and to save lives, 
protect property and public health and safety, and lessen or avert the 
threat of a catastrophe.
    FEMA does not differentiate between disasters caused by nature, 
such as earthquakes, or disasters such as a terrorist event. In all 
cases, FEMA provides response and recovery assistance geared to the 
event and in coordination with local, State and Federal officials. 
Consequently, the FEMA concept of operations assumes an all-hazard, 
risk-based approach to emergency management and encompasses and 
integrates the following phases of planning and operations: Awareness, 
Protection, Preparedness, Response, Recovery, and Mitigation. Using 
this ``all-hazards'' approach, preparing for one type of emergency can 
help all levels of government be prepared for other kinds of 
emergencies.

    Question 3. Will the current strategy be changed in the future and, 
if so, in what way?
    Answer. It is not envisioned that the basic all-hazards strategy, 
that has proven to be successful in disaster response, will be changed 
in the future. FEMA will take necessary measures to continue to improve 
its capabilities to respond to all types of disaster and hazards to 
preserve life and protect property. Part of this is creating, 
fostering, and sustaining a culture of preparedness emphasizing that 
the Nation shares common Homeland Security goals and responsibilities. 
In addition, at the Federal, State, and local levels, we must increase 
our common familiarity with the National Incident Management System and 
enhance our response capabilities by developing more effective 
organizational structures, implementing more training programs, and 
providing the needed disaster response equipment.
    We will continue our current strategic direction, focusing on:

  <bullet> Preparedness that connects departmental and other Federal 
        partner capabilities to ensure a continuous cycle of planning, 
        training, equipping, exercising, evaluating and taking 
        corrective action;

  <bullet> Resource management that ensures a uniform method of 
        identifying, acquiring, allocating and tracking resources;

  <bullet> Disaster response effectiveness based on fully coordinated 
        and integrated teams and capabilities;

  <bullet> Interoperable integrated communications and information 
        technologies; and

  <bullet> Ensuring information sharing capabilities essential to 
        situation awareness and incident management.

    Our goal is to maintain and improve the national framework that 
maximizes Federal capabilities and authorities to execute timely, 
tailored, and efficient Federal to State support, Federal to Federal 
support, and a pro-active response to all types of disasters, including 
catastrophic incidents. We are working to ensure that incidents are 
handled at the lowest possible organizational level throughout the life 
cycle of an incident.

    Question 4. Does FEMA's strategic planning and state of 
preparedness reflect the reality that there is a much greater 
likelihood of natural disasters than a terrorist attack?
    Answer. The disastrous hurricane season of 2005 has starkly 
illustrated that the risk of a catastrophic natural disaster is not 
theoretical. The combined threat posed by a natural disaster or 
terrorist event are such that the possibility of a catastrophic event 
in this country is a genuine concern regardless of cause.
    Despite continuing improvements to the national domestic incident 
architecture, planning for a comprehensive and effective response to--
and recovery from--a catastrophic incident remains a daunting task.
    As illustrated by the 2005 hurricane season, preparing for such an 
event requires planning, coordination and capability building at a 
level beyond that which we are accustomed to providing. In FY 2006, 
Congress provided $20 million to FEMA to support catastrophic incident 
response and recovery planning and exercises. FEMA is committed to 
working with Congress, States and local governments, as well as with 
other Federal agencies, to develop and implement plans that will 
improve our ability to plan for, respond to, and to recover from 
catastrophic disasters quickly and effectively.
    Historically FEMA has responded to many more natural disasters than 
terrorist events. FEMA and the Department of Homeland Security have 
adopted an ``all-hazards'' approach to disasters and emergencies 
because many of the response functions and consequences are the same 
regardless of whether the disaster is due to a natural disaster or 
terrorist event. Using this ``all-hazards'' approach, preparing for one 
type of emergency can help all levels of government be prepared for 
other kinds of emergencies.

    Question 5. Is FEMA currently capable of responding effectively to 
both natural disasters and terrorist attacks?
    Answer. FEMA is capable of responding to both natural disasters and 
terrorist attacks, however, improvements are still needed. We are 
continuing to implement lessons learned from FEMA's response to the 
tragic events of September 11, 2001 and the Agency's response to the 
intense 2004 and 2005 hurricane seasons. A challenge facing FEMA and 
the entire emergency management community is retaining sufficient 
numbers of trained and dedicated personnel and having adequate funding 
for required programs.

    Question 6. Do DHS and FEMA measure their readiness to respond 
effectively to natural disasters and terrorist attacks? If so, please 
describe in detail those metrics; provide me with a copy of each 
assessment since DHS was created; and provide documentary evidence to 
support the conclusions reached in those assessments.
    Answer. FEMA is responsible for coordinating and managing an 
integrated Federal response to any Presidentially-declared disaster or 
emergency. The interagency operations and activities conducted in 
relationship to this responsibility typically revolve around the 
collaborative fusion of multiple intergovernmental emergency management 
functions, organizations and activities under the general framework of 
the National Response Plan. Because many of the response activities are 
executed or performed by situational organizations (i.e., 
organizations, such as an Emergency Response Team, that are activated/
assembled when needed, and deactivated at the conclusion of their 
assigned mission), there is no residual team capability to monitor and 
resolve problems or issues occurring during the response or exercise 
that may require the follow-on attention of functional program areas. 
The Remedial Action Management Program (RAMP) is designed to address 
this gap. RAMP identifies issues, lessons learned and best practices 
resulting from the conduct of emergency management operations, for both 
actual events and exercises. The RAMP is geared toward allowing FEMA HQ 
and regional offices to correct programmatic/systemic problems 
encountered during response and recovery activities that occur during 
both actual and exercise emergency and disaster response operations.
    FEMA measures its readiness to respond effectively to disasters 
through the use of strategic goals, objectives and performance measures 
set forth each fiscal year. These metrics are designed to enhance 
FEMA's existing response capabilities and are tied directly to the 
strategic goals, objectives and priorities of the Department of 
Homeland Security. Achievement of these goals and objectives is a top 
priority for the Agency, and progress toward annual targets is reported 
during quarterly performance review briefings for FEMA leadership.
    Within the Response Division of FEMA, response readiness is 
evaluated using a series of performance measures aimed at assessing the 
operational capability of its major response team components, including 
the National Disaster Medical System's Disaster Medical Assistance 
Teams (DMATs), the Urban Search and Rescue Task Forces, the Mobile 
Emergency Response Support (MERS) Detachments, and the Federal Incident 
Response Support Teams (FIRSTs). Included in these performance measures 
is the assessment of operational readiness for emergency response 
teams, evaluation of readiness for teams and operations during 
exercises and actual event response, WMD event response capability, 
large-scale patient movement and mass casualty event training and 
exercise, and casualty treatment, evacuation and transport capability.

    Question 7. What method is used by FEMA to make initial 
identification of those in need of assistance? How are these persons 
tracked through the assistance process? How does FEMA target assistance 
to meet individual needs? How does FEMA determine the level, adequacy, 
and kind of assistance? How many Katrina victims have requested 
assistance; how many received assistance but are no longer receiving 
assistance; and how many are still receiving assistance? Does any 
method exist to track those persons as they fall off the assistance 
rolls?
    Answer.
    a. After a disaster declaration is received, FEMA utilizes public 
outreach to encourage those with disaster-related needs to file an 
application for assistance with FEMA. When an individual files an 
application with FEMA, we provide them with a Registration ID# for case 
tracking purposes, referral information to other assistance programs/
agencies, and details regarding the assistance process. Throughout the 
assistance process, we provide applicants with updates regarding their 
case, assistance eligibility determinations, etc., via written 
correspondence. If applicants wish to ask questions about their case or 
wish to update their FEMA records, they can do so using the Disaster 
Information Helpline toll-free phone service, or the Internet-Based 
Individual Assistance Center. All case processing is performed within 
the National Emergency Management Information System (NEMIS). NEMIS is 
the database in which applicant information is tracked, stored, and 
utilized for the purposes of determining applicant eligibility. Within 
a given declared disaster, applicant assistance or requests for 
assistance are sorted by applicant needs, rather than by geographical 
location or other criteria, which allows FEMA to assign properly 
trained staff to target specific needs of applicants.
    b. How many Katrina victims have requested assistance?

  <bullet> 1,709,542 registrations for assistance
  <bullet> $5.38 billion in assistance to 1,054,732 approved applicants 
        under the Individual Housing Program (IHP) for Katrina (as of 
        3/10).

    How many Katrina victims have received assistance but are no longer 
receiving assistance?

  <bullet> Data is not tracked in such a fashion.

    How many Katrina victims are still receiving assistance?

  <bullet> Data is not tracked in such a fashion.

    c. Applicants are encouraged throughout the assistance process to 
continue to contact FEMA if they have unmet needs caused by the 
disaster. After disaster assistance is provided, we do not generally 
reach out to applicants who do not contact us with additional requests, 
unmet disaster-related needs, updated contact information, etc. 
Additionally, unmet needs committees are set up by non-governmental 
organizations and charitable groups within the disaster area; staff 
working in FEMA field offices make referrals to these entities.

    Question 8. What will FEMA do with excess supplies and resources? 
Does FEMA warehouse these supplies or dispose of them? In cases 
involving disposal, how are those assets disposed of?
    Answer. Excess supplies and resources not used for a disaster are 
warehoused in one of FEMA's logistics facilities that are strategically 
located throughout the country. These supplies are used to provide life 
saving and life sustaining commodities to support FEMA's all-hazards 
mission. Supplies and resources that remained as a result of the four 
Florida hurricanes in FY04, including water and emergency meals, were 
pre-positioned and used to support Hurricane Katrina victims. 
Additionally, as a result of Hurricanes Katrina and Rita, FEMA's 
Logistics Center Fort Worth, TX grew from 236,000 square feet to 
approximately 1.5 million square feet to store excess equipment and 
supplies. Some excess food is provided to volunteer organizations such 
as the American Red Cross. Finally, some supplies and/or resources that 
are rendered inadequate for future use are disposed of in accordance 
with GSA regulations.
FEMA Organization and Intergovernmental Coordination
    In the wake of Hurricane Katrina, there have been significant 
concerns raised about (1) the organizational structure of FEMA; (2) the 
manner in which FEMA interacted with other Federal agencies in the wake 
of the disaster; and (3) the inadequacy of Federal, state, and local 
governments to implement the emergency response plans.

    Question 9. Are the responsibilities of FEMA's sub-units and its 
employees derived from the organizational missions?
    Answer. The responsibilities of FEMA's sub-units and employees are 
derived from its authorizing legislation. A list of FEMA's primary 
authorities are as follows:

  <bullet> Robert T. Stafford Disaster Relief and Emergency Assistance 
        Act, as amended (42 U.S.C. 5121 et seq.)

  <bullet> Homeland Security Act of 2002 (6 U.S.C. 101 et seq.)

  <bullet> National Security Act of 1947, as amended (50 U.S.C. 
        404,405)

  <bullet> Emergency Planning and Community Right-To-Know Act of 1986 
        (42 U.S.C. 11001 et seq.)

  <bullet> Title III of the Stewart B. McKinney Homeless Assistance Act 
        (42 U.S.C. 11331 et seq.)

  <bullet> National Dam Safety Program Act, as amended (33 U.S.C. 467 
        et seq.)

  <bullet> Public Health Security and Bioterrorism Preparedness and 
        Response Act of 2002, as amended (42 U.S.C. 300hh-11)

    Question 10. Are the roles of Federal, State, and local governments 
in disaster management clearly defined and well understood?
    Answer. Coordination with State, local, tribal, and territorial 
partners has been and remains among the highest priorities for the 
Department of Homeland Security. The Department uses a multitude of 
resources to coordinate policy, programmatic, and operational decisions 
with State and local officials, but the Office of State and Local 
Government Coordination (SLGC) has served as the primary coordination 
point for many of these efforts.
    SLGC routinely interacts directly with state and local officials 
involved in public safety, emergency management, intelligence, law 
enforcement, and other areas to ensure a constant flow of information 
to/from the Department's state and local stakeholders. Notably, one 
week before Hurricane Katrina made its second landfall, SLGC brought 
together the Nation's Homeland Security Advisors and Emergency Managers 
to speak with the Department's leadership about their priorities and 
needs.
    The Department continues to emphasize and train to the National 
Incident Management System (NIMS) as implemented by the National 
Response Plan (NRP). In the NRP the chain of command is a seamless 
integration of all levels of government, from the local Incident 
Commander through the local Multi-Agency Coordination System (typically 
a county Emergency Operations Center) through the State EOC, the 
Federal Joint Field Office (JFO) to the Homeland Security Operations 
Center (HSOC) which serves the Secretary of Homeland Security 
exclusively.

    Question 11. Does FEMA's Federal Response Plan specify resources 
from other Federal agencies that FEMA can draw upon and how FEMA pays 
costs associated with such resources?
    Answer. The Federal Response Plan has been superseded by the 
National Response Plan. The National Response Plan (NRP), released on 
January 6, 2005, uses the comprehensive framework of the National 
Incident Management System (NIMS) to provide the structure and 
mechanisms to coordinate Federal support to State, local, and tribal 
incident managers and to exercise direct Federal authorities and 
responsibilities. The NRP is applicable to all Federal departments and 
agencies that may be requested to provide assistance or conduct 
operations during actual or potential Incidents of National 
Significance. * The NRP was signed by 32 Federal departments and 
agencies, as well as the American Red Cross, the Corporation for 
National and Community Service, and the National Voluntary 
Organizations Active in Disasters.
---------------------------------------------------------------------------
    * Major disasters and emergencies as defined under the Stafford Act 
meet the criteria for Incident of National Significance; however, it is 
possible to have an Incident of National Significance that does not 
meet Stafford Act criteria.
---------------------------------------------------------------------------
    The NRP consists of 4 components:

    NRP Base Plan--describes the structures and processes to integrate 
the efforts and resources of Federal, state, local, tribal, private 
sector, and non-governmental organizations. The Base Plan includes 
roles and responsibilities, concept of operations, incident management 
actions, and plan maintenance instructions.
    Emergency Support Function (ESF) Annexes--detail the missions, 
policies, structures, and responsibilities of Federal agencies for 
coordinating resources and programmatic support during Incidents of 
National Significance. The ESFs provide a functional approach to 
organize the capabilities of Federal departments and agencies and the 
American Red Cross. Through the ESF system, FEMA can call upon any of 
the 32 signatories to the NRP to provide resources, equipment or 
expertise.

    Support Annexes--provide guidance and describe functional processes 
to ensure efficient and effective implementation of NRP incident 
management objectives. Support annexes address such things as: 
financial management, logistics management, private sector 
coordination, volunteer and donations management, and worker safety and 
health. Federal departments and agencies supporting the NRP are 
activated and engaged using either a mission assignment process for 
events supported by Stafford Act funding, or through interagency 
agreements or other direct funding sources when implemented using other 
authorities.

    Incident Annexes--address contingency or hazard situations 
requiring specialized application of the NRP. The Incident Annexes 
describe the missions, policies, responsibilities and coordination 
processes for incident management and emergency response operations 
across a spectrum of potential hazards. The Incident Annexes address 
the following types of incidents: Biological, Catastrophic, Cyber, Food 
and Agriculture, Nuclear/Radiological, Oil and HazMat, and Terrorism 
Incident Law Enforcement and Investigation. The Incident Annexes are 
not necessarily mutually exclusive events. More than one incident annex 
may be applied depending on the circumstances of the incident. The 
Incident Annexes address generic events; they are not currently tied to 
the 15 planning scenarios developed by the White House Homeland 
Security Council.

    Question 11a. What procedures are in place for FEMA to process 
interagency offers of assistance and resources?
    Answer. Federal departments and agencies supporting the NRP are 
activated and engaged using either a mission assignment process for 
events supported by Stafford Act funding, or through interagency 
agreements or other direct funding sources when implemented using other 
authorities. If the assistance/resources offered are needed, FEMA would 
execute a mission assignment, or other direct funding sources when 
implemented using other authorities, to accept the assistance/
resources.
    FEMA requests and obtains interagency support and assistance under 
the Stafford Act through the Mission Assignment process. A Mission 
Assignment (MA) is a work order issued by FEMA to a Federal department 
or agency (D/A) directing completion of a specific task, and citing 
funding (when applicable), other managerial controls, and guidance 
given in anticipation of, or response to a Presidential declaration of 
a major disaster or emergency.
    All assistance and resource actions begin with the identification 
of an unmet need. The need may originate in a variety of ways, but 
typically the State and/or local emergency management agency, FEMA, and 
other responding Federal agencies are the most common sources. Once an 
action request has been captured, a staff member of the Operations 
Section within an Emergency Response Team (ERT), Regional Response 
Coordination Center (RRCC) staff, or Emergency Support Team (EST) at 
the National Response Coordination Center coordinates the request 
through the Operations Section. The Operations Section Chief or a 
designee, who assesses the request, confirms its validity, and 
determines which organizational element within the emergency team is 
best suited to fulfill the request. The Operations Section Chief also 
identifies the relative priority of the action, in terms of criticality 
(lifesaving, life-sustaining, high, medium, normal), lead time for 
delivery, or timeframe for completion. A request may also be returned 
to the originator for additional information, clarification, or 
execution under the originator's own authority. In cases where the 
fulfillment of the request is already being accomplished under another 
action, or is proscribed from being completed by law and/or regulation, 
the requests may be returned to the requestor without action. The 
Operations Section Chief assigns the action request to an 
organizational element within the emergency team for coordination and 
completion.
    In cases where resources and assistance are offered from the 
interagency community, the offer would immediately be processed and 
reviewed to determine if it could satisfy any unmet needs or resource 
requirements, and if not, it would be passed on to the Emergency 
Support Function with responsibility for providing/overseeing the type 
of resource or support into which the offer would fall.

    Question 11b. How does FEMA request interagency assistance?
    Answer. FEMA requests and obtains interagency support and 
assistance under the Stafford Act through the Mission Assignment 
process. A Mission Assignment (MA) is a work order issued by FEMA to a 
Federal department or agency (D/A) directing completion of a specific 
task, and citing funding (when applicable), other managerial controls, 
and guidance given in anticipation of, or response to a Presidential 
declaration of a major disaster or emergency.
    There are three types of Mission Assignments: Federal Operations 
Support, Technical Assistance for expert advice, Direct Federal 
Assistance for goods and services beyond the State's capability to 
provide.

    Question 11c. Given the obvious deficiencies demonstrated post-
Katrina, how will FEMA and DHS reform communications networks?
    Answer. In the Fall of 2005, the Department created an emergency 
communications working group to ensure that when the National Response 
Plan is activated, communications and IT are an enabler to the mission 
of the Principal Federal Officer (PFO) and Federal Coordinating Officer 
(FCO). In addition, the working group was tasked with the mission of 
ensuring that there is one point of situational awareness and interface 
to other Federal communication support agencies for entry and tasking 
generation to satisfy Federal, state, and local communication 
requirements. The group proposed the creation of PFO/FCO communications 
chief that plans for and executes the IT and communications 
requirements of the PFO/Joint Field Office staff. In addition, the 
group recommended the continued use of the existing Emergency Support 
Function (ESF) 2 structure as the single point of communications 
situation awareness, and entry and tasking generation for satisfying 
communications requirements. To support the effort the group has 
completed or in the process of completing the following:

  <bullet> Conducted an inventory of communications assets in the 
        Department

  <bullet> Written a draft DHS Concept of Operations of how assets 
        would be tasked within the Department

  <bullet> The National Communications System (NCS) in its ESF-2 
        (communications) role has completed a draft Concept of 
        Operations with its primary and support agencies

  <bullet> NCS in its ESF-2 role is working out its relationship with 
        Northcom's head of communications

  <bullet> Preparedness is developing an exercise time line for the 
        Department and States to test this capability. The exercise 
        will be coordinated with ongoing FEMA activities.

  <bullet> Both FEMA and NCS have identified additional people to fill 
        the critical communication roles identified to work with 
        regions on the Communications Plan.

  <bullet> Identified the National Law Enforcement Center to act as a 
        radio control center for DHS

    In addition, the Department is seeking to test this capability 
through multiple exercises in the gulf region and eastern seaboard 
prior to next hurricane season.
    FEMA Response and Recovery operates the Mobile Emergency Response 
System (MERS) trailers, which among other things provides emergency 
communication abilities in a disaster event. In a catastrophic event, 
such as Katrina, the region's communications infrastructure was 
destroyed, and while the MERS performed as designed, they were not 
sufficient for the catastrophe. The Federal Government, DOD, private 
organizations, local governments, and commercial interests have 
communication assets for emergency events; however, there is no 
standardized coordination of these assets. NPIP proposes to strengthen 
national preparedness by cataloging emergency communication assets, 
pre-coordinating their use, and developing communications plans for 
catastrophic event scenarios. NPIP leads, coordinates, and synchronizes 
Federal preparedness capabilities and assets, and in concert with other 
partners, addresses catastrophic scenarios that require the merging of 
Federal, State, and local preparedness and response capabilities for 
responses equal to the magnitude of a catastrophic event.
    Interoperable communications equipment has been an allowable use of 
the homeland security grants offered by the Office of Grants and 
Training (G&T) since the inception of the Department. Use of these 
grant funds is tied to the goals and objectives identified in each 
state or urban area homeland security strategy. Interoperable 
communications was addressed in 54 of 56 current state homeland 
security strategies and in 48 out of 49 urban area homeland security 
strategies. From FY 2003 through 2005 more than $2.1 billion in G&T 
funding has been applied by States toward interoperable communications 
solutions. As part of this process, G&T also established an 
interoperable communications technical assistance program (ICTAP) to 
ensure that these funds are maximized by the grantees. ICTAP provides 
expert assistance to States and urban areas for the identification of 
gaps in their existing communications capabilities, for developing 
solutions, and for sustainment of the enhanced capacities. This program 
was funded at $5 million in FY 2006.
    Over $2 billion has been invested in interoperability across first 
responder disciplines. The Department is aware of other studies that 
predict the total cost of achieving total communications 
interoperability to be roughly $18.3 billion. However, new equipment 
for jurisdictions will not alone solve the problem of communications 
interoperability. Spectrum, standards, incident command training, and 
other elements are essential when looking at interoperability 
solutions.

    Question 12. Do FEMA and its employees have decision-making 
authority that matches their roles and responsibilities?
    Answer. Yes. Appropriate authorities have been assigned and 
delegated to FEMA officials and employees so that they may perform 
their essential roles in responding to, recovering from, and mitigating 
against natural and man-made disasters.

    Question 13. Does FEMA familiarize its partner organizations in 
disaster response with all required procedures so that response times 
are not unduly delayed? Are those familiarization procedures effective?
    Answer. Yes. FEMA routinely meets with its national- and regional-
level partners through the auspices of the Emergency Support Functions 
Leadership Group (ESFLG) and the Regional Interagency Steering 
Committees (RISCs). These meetings are designed to facilitate a 
collaborative planning environment that is conducive to ensuring 
interagency coordination and communication.
    FEMA also routinely convenes multi-agency video teleconferences and 
conference calls involving the ESFLG, FEMA regional staff, and 
incident-specific command and operations centers (i.e., the National 
Hurricane Center, HSOC) at the Federal and State levels upon receipt of 
actionable warnings. At these events, basic incident-specific 
preparedness, response, and initial recovery actions are introduced, 
coordinated, and synchronized in preparation for possible response. 
Action and Resource Tracking and Visibility efforts are initiated to 
complement ongoing situational awareness efforts and incident-specific 
Incident Collection Plans (ICPs) and Initial Actions Checklists are 
distributed to in-theater liaison officers located at the State 
Emergency Operations Centers (SEOCs) and advance management teams such 
as the Hurricane Liaison Team (HILT).
    FEMA's coordinating plans, procedures, protocols, and practices 
have been effective in enhancing and focusing Federal, State, and local 
situational awareness and in pre-positioning Federal assets to 
locations suited to providing a rapid entry into the affected area in 
response to local and State requirements.

    Question 14. Does FEMA familiarize state and local governments with 
all the required procedures to apply for Federal assistance in the case 
of natural disasters? Are those familiarization procedures effective?
    Answer. Yes, FEMA effectively familiarizes State and local 
governments with all the required procedures to apply for Federal 
assistance in the case of natural disasters. There are 10 FEMA regional 
offices and two area offices (Caribbean and Pacific), each region 
serving several states. The regional offices provide training, host 
workshops, and brief the states on Title IV of the Stafford Act 
Sec. 401, which covers major disaster assistance programs and 
procedures for declarations. In addition, regulations are outlined 
under 44 CFR 206.36 as well as Title V of the Stafford Act Sec. 501, 
which speaks to emergency declarations and implementing regulations at 
44 CFR 206.35. Summits are held by the regional offices to update the 
states on new guidance, processes, and procedures. FEMA staff work 
directly with their respective states and provide assistance as 
necessary. Regional offices monitor potential and actual situations in 
their respective states, assist with requests for disaster or emergency 
assistance, conduct joint Federal, State and local damage assessments, 
and provide a host of additional services.

    Question 15. Are FEMA's operating procedures routine so that they 
do not have to be reinvented in a post-disaster situation?
    Answer. Yes. FEMA's operating procedures are standard and routine 
but the resources committed, and the command and control structure 
established, is scalable depending on the size of the disaster. A joint 
field office with a unified command of a Federal and state coordinating 
officer is routine for all disasters. An ICS structure with major 
components of Operations, Planning, Logistics, and Finance and 
Administration is resourced according to the size and complexity of the 
disaster. Federal agencies are routinely tasked to staff the Emergency 
Support Functions within the Operations Section when appropriate. For 
larger disasters, FEMA Regions will activate Regional Response 
Coordination Centers and FEMA HQ will activate the National Response 
Coordination Center.
    FEMA and its Federal, State, local, and tribal sector partners 
routinely employ the same authorities and references in emergency 
management and disaster response. With the exception of the adoption of 
the NIMS and NRP, few changes have occurred in the interagency Federal 
planning and operational response paradigm since the introduction of 
the Federal Response Plan in 1993 following Hurricane Andrew.
    Among the key guiding documents/plans/systems are the following:

        1. April 2004, National Incident Management System

        2. December 2004, National Response Plan

        3. November 2005, Draft National Infrastructure Protection Plan

        4. April 2005, Emergency Support Function #5 Emergency 
        Management Standard Operating Procedures

        5. April 2005, Draft Interagency Incident Management Group 
        (IIMG) Activation and Operations

        6. April 2005, National Response Coordination Center (NRCC) 
        Standard Operating Procedures

        7. April 2005, Regional Response Coordination Center/Regional 
        Support Team Standard Operating Procedures

        8. April 2005, Interagency Integrated Standard Operating 
        Procedure Homeland Security Operations Center (HSOC)

        9. April 2005, Interagency Integrated Standard Operating 
        Procedure Joint Field Office (JFO) Activation and Operations

    Secondly, all FEMA-developed concepts of operations, operations 
plans, and implementation plans are fully coordinated with FEMA's 
Federal department and agency partners at the national level through 
the Emergency Support Functions Leadership Group. Regional 
documentation is similarly coordinated at the regional, State, and if 
necessary, local levels through the Regional Interagency Steering 
Committees (RISCs).
    These documents and others provide an effective structure and 
mechanisms for Federal responses and operational coordination efforts 
for incident management, response, and recovery.
FEMA Responsiveness and Utilization of Manpower
    Recently, reports have surfaced concerning numerous incidents 
involving misallocation of resources and unused offers of assistance 
from Federal agencies, state and local government, and volunteers. FEMA 
has long relied on volunteers to provide relief services.

    Question 16. In the wake of Hurricane Katrina how many volunteers 
were deployed? How many people submitted applications to volunteer 
prior to Hurricane Katrina but were not deployed after the hurricane?
    Answer. Over six thousand people volunteered to work with FEMA in 
disaster operations in any capacity following Hurricane Katrina. The 
need existed for Community Relations Officers as well as Individual 
Assistance Officers. The Community Relations workers underwent a 
training program in Atlanta prior to going into the field. The 
Individual Assistance Officers went to Orlando, Florida. The volunteers 
included Citizen Corps, firefighters, and Native American tribes.
    FEMA does not accept applications for volunteer deployment nor does 
FEMA deploy volunteers. Organizations such as the American Red Cross 
coordinate the services provided by volunteers during disaster response 
activities.

    Question 17. What training do these volunteers receive to prepare 
them for their relief role? What screening do these persons receive 
during the application process?
    Answer. To prepare for the arduous task of operating in the impact 
area, volunteers and additional hires received an initial screening 
that covered the requirements of applicable Federal law, including 
finger printing, national records checks, and being sworn in as Federal 
officials. As a result, they were able to receive temporary Federal 
identification allowing them entry into the appropriate FEMA 
facilities. Their training was a condensed version that included all 
mandatory training required by law. Human Rights, Government Ethics, 
payroll procedures and equipment responsibility were among the many 
general areas covered. In addition, they received substantial and 
condensed training on disaster relief procedures, Stafford Act program 
areas, community relations, dealing with traumatized victims, and 
trans-cultural communications.

    Question 18. What screening process did contractors and other 
organizations who received Katrina contracts go through? Does FEMA have 
a pre-approved vendor list or contracts that it relies on to deliver 
initial services?
    Answer.
    a) FEMA uses a two step screening process before awarding a 
contract. First, in accordance with the criteria stated in the 
solicitation, FEMA evaluates offers to identify the company(ies) that 
offers the best value to the Federal Government. Second, FEMA 
contracting officers make an affirmative ``responsibility'' 
determination before the contract award to ensure that the prospective 
contractor has the resources, experience, etc., to successfully perform 
the requirement.
    b) FEMA has several contracts in place for anticipated disaster 
requirements. However, based on lessons learned from Hurricane Katrina, 
FEMA is working on awarding additional, long-term contracts to improve 
FEMA's ability to respond more effectively to disasters.

    Question 19. What method does DHS/FEMA suggest to provide 
supplemental first responder services in the wake of disaster? Is there 
a need for these services?
    Answer. Generally, Federal departments and agencies supporting the 
National Response Plan are activated and engaged using either a mission 
assignment process for events supported by Stafford Act funding, or 
through interagency agreements or other direct funding sources when 
implemented using other authorities. If the assistance/resources 
offered are needed, including first responder services, FEMA would 
execute a mission assignment, or other direct funding sources when 
implemented using other authorities, to accept the assistance/
resources.
    All assistance and resource actions, including first responder 
services, begin with the identification of an unmet need. The need may 
originate in a variety of ways, but typically the State and/or local 
emergency management agency, FEMA, and other responding Federal 
agencies are the most common sources. Once an action request has been 
captured a staff member of the Operations Section within an Emergency 
Response Team (ERT), Regional Response Coordination Center (RRCC) 
staff, or Emergency Support Team (EST) at the National Response 
Coordination Center coordinates the request through the Operations 
Section. The Operations Section Chief or a designee, who assesses the 
request, confirms its validity, and determines which organizational 
element within the emergency team is best suited to fulfill the 
request. The Operations Section Chief also identifies the relative 
priority of the action, in terms of criticality (lifesaving, life-
sustaining, high, medium, normal), lead time for delivery, or timeframe 
for completion. A request may also be returned to the originator for 
additional information, clarification, or execution under the 
originator's own authority. In cases where the fulfillment of the 
request is already being accomplished under another action, or is 
proscribed from being completed by law and/or regulation, the requests 
may be returned to the requestor without action. The Operations Section 
Chief assigns the action request to an organizational element within 
the emergency team for coordination and completion.
    In cases where resources and assistance are offered from the 
interagency community, the offer would immediately be processed and 
reviewed to determine if it could satisfy any unmet needs or resource 
requirements, and if not, it would be passed on to the Emergency 
Support Function with responsibility for providing/overseeing the type 
of resource or support into which the offer would fall.
    FEMA requests and obtains interagency support and assistance under 
the Stafford Act through the Mission Assignment process. A Mission 
Assignment (MA) is a work order issued by FEMA to a Federal department 
or agency (D/A) directing completion of a specific task, and citing 
funding, other managerial controls, and guidance given in anticipation 
of, or response to a Presidential declaration of a major disaster or 
emergency.
    Furthermore, every state in CONUS is a member of the Emergency 
Management Assistance Compact (EMAC), which provides robust support to 
member states during emergencies and disasters. EMAC resources can be 
supplemented with Federal resources through the mission assignment 
process.
    In light of the events surrounding Hurricane Katrina, which 
stressed response and recovery resources at every level of government, 
DHS/FEMA is reviewing disaster response policy to determine how the 
Agency can best respond to disasters of all proportions, with a 
particular emphasis on how best to respond during the initial phases of 
response, when lifesaving and life-sustaining efforts are of the 
highest priority.
    Additionally, Citizen Corps, as part of the Office of Community 
Preparedness, focuses on engaging the public in organized grass roots 
efforts to prepare themselves and their communities and to support the 
work of emergency personnel; creating a culture shift in how government 
leaders, emergency responders, and the public view the role of the 
``citizen'' in preparedness; and providing an integrated approach and a 
national voice to promote community preparedness. The key Citizen Corps 
programs are Community Emergency Response Teams (CERT), Fire Corps, 
Medical Reserve Corps, Neighborhood Watch, and Volunteers in Police 
Service. DHS also partners with 25 national non-profit groups and more 
than 70 associations to promote community preparedness.
    From FY 2002 through FY 2006, DHS has distributed approximately 108 
million dollars for Citizen Corps activities. These activities include 
establishing and enhancing Citizen Corps Councils; establishing and 
enhancing citizen volunteer initiatives (Fire Corps, CERT, Medical 
Reserve Corps, Neighborhood Watch, etc.); and establishing and 
enhancing citizen awareness of emergency preparedness, prevention, and 
response measures. The Councils' added value is that it brings to the 
first responder table the ``voices'' of the many non governmental 
organizations (volunteer, non-profit, faith-based, private sector) that 
are the backbone of any successful community level preparedness and 
response effort. State, local and tribal Citizen Corps Councils are 
formed and work with the State Homeland Security Office and the State 
Emergency Management Office to bring together the first responder and 
the non-first responder community to address the citizen preparedness 
needs of the community. Citizen Corps has 56 state/territory councils 
and 1,925 county/local/tribal councils. These councils serve 
203,856,618 people, which is 71 percent of the total U.S. population.
    During Hurricane Katrina, 14,000 Citizen Corps volunteers from all 
50 states and the District of Columbia supported the relief efforts. 
The prior training and involvement in the Citizen Corps programs made 
them immediately prepared to step in and help the emergency responders. 
The most successful of these efforts was the Houston Astrodome where 
the Citizen Corps program and Council lead the way for managing the 
60,000 volunteers who supported the response effort.
Flood Insurance Program
    Since Hurricane Katrina, Congress has had to significantly increase 
the statutory borrowing authority for the National Flood Insurance 
Program (NFIP) from a pre-Katrina authority of $1.5 billion to a 
current Congressional proposal of $21.2 billion. Congress has been 
advised that there is little hope that the NFIP will ever be able to 
repay the taxpayers for this borrowing. Obviously, this program is not 
actuarially sound as it has required significant and repeated bailouts 
by the taxpayers.
    FEMA has advised my staff that, between 1978 and 2004, 14 states' 
NFIP claims have significantly exceeded the total premiums paid by 
property owners in those states. In 36 states, however, the amount paid 
to settle claims is significantly less than the total premiums paid. 
For example, property owners in my home state of Nevada have received 
$25.8 million to settle claims compared to their total NFIP premiums of 
$65.5 million. This would suggest that my constituents are, in part, 
subsidizing the risk for repetitive-loss properties, such as those 
located in Missouri where claims paid total $418.6 million compared to 
premiums of only $141.5 million. This would also suggest that certain 
regions of the country, such as the Gulf Coast Region, are heavily 
subsidized relative to risk of loss. For example, property owners in 
Texas have received $2.7 billion in claims while only paying in $1.8 
billion in premiums.

    Question 20. What reforms does the Department of Homeland Security 
(DHS) believe are necessary to make the NFIP actuarially sound so as to 
appropriately shift the risk loss away from the taxpayers to owners of 
high-risk properties without further shifting risk loss to owners of 
lower risk properties?
    Answer. The Department is currently assessing the financial 
structures and policies of the NFIP, including whether any 
modifications to existing authority may be required. We look forward to 
working with Congress on any legislative changes which may be needed.

    Question 21. Will DHS propose ending the current practice of 
grandfathering properties built before enactment of the NFIP? If so, 
what specific proposals does DHS have to end this practice?
    Answer. DHS does not have any plans at this time to end the 
practice of grandfathering properties built before the enactment of the 
NFIP.
Accounting of Disaster Relief Dollars
    Significant dollars have been spent on rescue, recovery, and relief 
efforts in the Gulf Region. The Government Accountability Office has 
detailed a series of accounting flaws, waste, fraud, and mismanagement 
of $85 billion in Katrina-related spending. FEMA has admitted mistakes 
but that there is little recourse to recoup payments.

    Question 22. What factors in the FEMA organization contributed to 
the poor oversight of this money? Were the financial accounting 
measures in place adequate or were they not properly executed? What 
obstacles must FEMA overcome to install appropriate oversight measures?
    Answer. The Department of Homeland Security has repeatedly observed 
and stated that Federal, state, and local response capabilities were 
overwhelmed by the size and scope of Hurricane Katrina. This event is, 
by far, the most monumental natural catastrophe the U.S. has ever faced 
with obligations-to-date of over $23 billion by FEMA alone. And, while 
FEMA's financial accounting controls were severely strained during the 
hurricane, the accounting system does meet the core system 
requirements.
    In general for disasters, FEMA's critical focus is always centered 
upon getting the relief assistance to the disaster victims as soon as 
possible. During the Katrina disaster, with its devastating magnitude 
and effects on lives and property, some oversight and internal controls 
suffered in light of this focus and were also overcome by the magnitude 
of events.
    Notwithstanding, during an active disaster, FEMA's personnel 
continue to focus on the relief effort and rely on addressing lessons 
learned and control issues afterwards. To this end, FEMA, along with 
DHS, has contracted with PricewaterhouseCoopers, LLP to study financial 
oversight and internal controls, determine gaps in propriety and/or 
adequacy, and present comprehensive recommendations for practical 
solutions to audit findings, after-action reports, and any other risk 
conditions they may find.

    Question 23. Please provide a detailed accounting of all 
appropriated funds for efforts in the Gulf Region, including all 
reprogrammed funds, and a summary for every contract with a cost of 
over $10 million.
    Answer. The Department of Homeland Security (DHS) provides a weekly 
status report on the Disaster Relief Fund. This report provides a 
detailed accounting of the DRF for the Gulf Region. This report can be 
found in the following website
http://appropriations.house.gov/_files/HurricaneKatrinaLink.htm.
    Also attached is a list of all contracts awarded by FEMA as of 
March 15, 2005 that exceed $10 million.
    This list is updated weekly and is also available on the DHS 
website at www.dhs.gov/dhspublic/interapp/editorial/editorial_0729.xml.

    Question 24. It is reported that FEMA purchased nearly 25,000 
manufactured homes at a cost of $857 million, and around 1,300 modular 
homes at a cost of $40 million. Almost 11,000 of those manufactured 
homes are unused and sitting in Arkansas. To the extent that these 
11,000 homes are going unused, what will be done with them? What will 
be done with respect to any other surplus property?
    Answer. It is FEMA's intent to use the existing inventory of 
manufactured homes to the extent possible to meet disaster-related 
housing needs and we are actively working that end. Among the efforts 
to utilize the 11,000 manufactured homes in Arkansas are:

  <bullet> Mobile home group sites are being developed in the Katrina 
        impact area, including over 1,600 units worth in the Lake 
        Charles, LA, area alone;

  <bullet> Mobile home commercial park available sites are being 
        utilized wherever possible in the parishes facing the greatest 
        housing needs:

  <bullet> When requests for housing assets are received, applicants 
        are informed that if their site can accommodate a mobile home 
        that is what they will be provided; and

  <bullet> In some restricted areas, we are allowing the use of mobile 
        homes on private sites as long as appropriate protective 
        actions are taken including concrete piers and site elevation 
        actions.

    FEMA is also utilizing these assets to meet the transitional 
housing needs of the victims of other disasters that have occurred 
subsequent to Katrina. While we do not necessarily expect these units 
to end up as surplus property, should they do so they would be disposed 
of under the appropriate Federal property disposal programs of the GSA.

    Question 25. Additionally, the contracts FEMA entered into (such as 
with the cruise line) do not appear to have been a wise use of taxpayer 
dollars. What oversight measures were in place to ensure that the 
appropriate amount of short-term housing was available? What measures 
were in place to ensure that housing options were cost effective?
    Answer. FEMA traditionally approaches temporary housing with direct 
housing resources as the last resort. Our first option is to repair the 
damaged home of the victims. This has been done to a large degree 
through the tarping program that allows the residents to live in their 
homes as repairs are accomplished. But the repair option also is a 
reason why homeowners have chosen to use travel trailers on their 
property while repairing their homes. The second option is rental 
properties in the disaster area. In the case of Katrina, this option 
was very depleted. So much rental stock was lost that little remained 
available for the renters who had lost their apartments. The third 
option is then direct (e.g., manufactured) housing. We have used a 
significant number of travel trailers and a much smaller number of 
mobile homes to meet this need.
    Contrary to press reports, the cruise ships were an appropriate use 
of taxpayer dollars. Most of these ships were used in the New Orleans 
area where there were no available housing assets so there were no 
viable alternative short-term housing options. Using the ships, not 
only victims but emergency and safety workers and others assisting in 
the recovery of the damaged area could stay in the vicinity immediately 
while we worked to increase housing resources in the area. Given the 
wide swath of the storm commuting distances were enormous and still 
housing opportunities were limited. In fact, during the early weeks 
following the disaster, even congregate shelters were overwhelmed and 
we needed alternative resources to house families and individuals. 
Through the use of the ships we were able to both provide better 
sheltering and also have the time to bring in manufactured housing, 
restore utilities, and provide suitable housing alternatives for the 
affected residents of the area. As to the question of their cost-
effectiveness, these ships were used primarily to house disaster 
victims who were also necessary to the restoration of public safety and 
economic activity in the area, and the per berth cost of their housing 
in the ships was less than the Federal per diem rate for the New 
Orleans area. Even if the cost had not been competitive, the lack of 
housing alternatives would have made use of the ships appropriate in 
order to support the efforts to restore the functioning of public and 
private institutions in the impact area.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                       Vice Admiral Thad W. Allen

Implementing Non-Security Missions
    Question 1. According to a 2004 Government Accountability Office 
(GAO) report, resource hours spent by Coast Guard vessels and aircraft 
for non-security missions in 2001 to 2003 were down from pre-September 
11 levels as follows: Foreign fishing incursions down 16 percent, 
search and rescue down 22 percent, living marine resources enforcement 
down 32 percent, and interdiction of illegal drugs down 44 percent. In 
contrast, the report found that port security resource hours had 
increased by 1,200 percent since September 11.
    The FY 2007 budget request would allocate 54 percent of the Coast 
Guard's operating budget to security missions, significantly increasing 
the focus on security and away from other missions. Prior to the events 
of September 11, 2001, the Coast Guard invested only 2 percent of its 
operating budget into security activities. In FY 2004, this grew to 47 
percent and in FY 2005, 48 percent. The Coast Guard's FY 2007 budget 
request moves two of its missions defined by the Homeland Security Act 
of 2002 as ``security'' missions (law enforcement and drug 
interdiction) into the non-security column, which has the effect of 
raising (on paper) the percent of funding going to non-security 
missions.
    As you know, we ask a tremendous amount from the Coast Guard, and 
have given it major new responsibilities in the area of maritime 
security. However, no one wants this new responsibility to come at the 
expense of other core Coast Guard missions, including search and 
rescue, marine safety, and enforcement of our fisheries and 
environmental laws. I am concerned that the Coast Guard continues to 
move away from these core missions. This is apparent in the FY 2007 
budget request and even in your written statement here today, which 
focuses heavily on the Coast Guard's Homeland Security mission. What 
will you do to make sure that the Coast Guard is adequately funding and 
fulfilling all of its missions, including its non-security missions?
    Answer. First and foremost, the Coast Guard will focus on 
performance outcomes for all its assigned missions. Of more interest to 
me than the number of resource hours we're expending toward a mission 
is whether we're accomplishing our stated performance goals. For 
example, our Search and Rescue (SAR) hours and associated budgeted 
costs have shown a declining trend in recent years. This is good news, 
not bad news. It means the Coast Guard is spending less time conducting 
SAR cases as a result of a number of factors (e.g., less people are in 
distress, improved planning and asset capabilities are reducing search 
times).
    Coast Guard operational assets and systems are critical across all 
Coast Guard missions; their readiness and capability is a key 
foundation of maritime safety and security. For example, a Coast Guard 
cutter on patrol in the Caribbean or Eastern Pacific transit zone may 
in a single week make a maritime drug seizure, intercept undocumented 
migrants at sea, and respond to a vessel in distress. Performance 
outcomes will continue to be our primary yardstick for measuring the 
effectiveness of Coast Guard operations as well as the adequacy of 
resources.

    Question 2. The FY 2007 budget proposes only an $8 million increase 
to curtail foreign fisheries violations. We have heard concerns that 
the Coast Guard has been failing to detect or interdict illegal 
incursions of foreign fishing vessels within the Western/Central 
Pacific area of the U.S. Exclusive Economic Zone. What are your 
thoughts on how the Coast Guard can improve its performance in this 
area?
    Answer. The Coast Guard's Integrated Deepwater System (IDS) 
project, augmented by the initiatives outlined in the Coast Guard's 
Fisheries Strategic Plan, Ocean Guardian, call for increased capability 
and a more robust intelligence analysis of the Western Central Pacific 
(WCP) area to deter foreign fishing vessel incursions into our EEZ.
    The IDS will provide a flexible and agile system of cutters, 
aircraft and command and control systems to increase enforcement 
presence, while intelligence analysis will focus enforcement efforts. 
The Coast Guard also continues working with the national intelligence 
community to obtain data and analysis of the WCP area. Furthermore, the 
Coast Guard will foster bilateral and multilateral international 
relationships critical to effective enforcement of the WCP. This is 
best accomplished through the Western Central Pacific Fisheries 
Commission, the regulatory body managing the highly migratory species 
in the WCP; and the North Pacific Heads of Coast Guard Agency, whose 
many missions include coordinating enforcement efforts aimed at the 
conservation of living marine resources in the Pacific Ocean.
    Further information can be found in the Coast Guard's Report on 
Fisheries Enforcement in the Western Central Pacific Ocean and on the 
U.S.-Russian Maritime Boundary Line, submitted to Congress on February 
9, 2006.

Deepwater Program
    Question 3. The Deepwater program is a $24 billion, 25-year 
acquisition program to replace or modernize 93 Coast Guard ships and 
207 Coast Guard aircraft. This is the largest and most complex 
acquisition effort in Coast Guard history.
    The FY 2006 Department of Homeland Security (DHS) Appropriations 
Act provided $933.1 million for the Deepwater program. This was reduced 
to $923.8 million in post-enactment adjustments, and then increased to 
$943.6 million by moving funding for Airborne Use of Force (AUF) and 
covert surveillance into the Deepwater program. The President's FY 2007 
budget request includes an essentially flat budget request of $934.4 
million for the Deepwater program.
    The Government Accountability Office (GAO) has provided reports and 
testimony to this Committee on the need to improve Coast Guard 
oversight of this complex acquisition.
    One major challenge you will face as Commandant is the continued 
management of the Deepwater program. The first five-year contract for 
this acquisition is coming to an end, costs have run higher than 
expected, and the Government Accountability Office has recommended that 
the Coast Guard improve its management of the program. I was pleased to 
learn that you have been directly involved with oversight of major 
procurement decisions within the Department of Homeland Security as the 
Chairman of the Joint Requirements Council. Are there additional steps 
that need to be taken to improve the Deepwater program to assure its 
success?
    Answer. There are three steps that I will take to improve the 
Deepwater program to assure its success.
    The first step is to achieve stability and focus on execution 
rather than change management. The original Deepwater proposal was 
developed prior to the catastrophic events of September 11, 2001. When 
the contract was signed in June of 2002, the Coast Guard knew that the 
system to be delivered by that contract was insufficient to meet our 
post-9/11 maritime homeland security mission requirements.
    In the first five years of the Deepwater contract, its flexibility 
has been repeatedly challenged as the Coast Guard endeavored to revise 
the Deepwater system to meet new requirements. The Coast Guard engaged 
in a performance gap analysis and proposed an increase in the 
functional capabilities of the Deepwater assets to ensure that post-9/
11 mission requirements would be achieved by a revised Deepwater 
system. In the summer of 2005 this resulted in the acceptance and 
funding of a revised Deepwater implementation plan, the details of 
which are still being negotiated for delivery by our contractor, 
Integrated Coast Guard System (ICGS). This change was necessary but has 
been demanding and slowed the design and delivery of assets. I plan to 
stabilize requirements and focus on ruthless execution of those new 
post-9/11 requirements. It was necessary to change Deepwater so that it 
buys the tools the Coast Guard needs to meet its new mission 
requirements. Now we have to set about acquiring that revised system so 
the tools get into Coasties' hands as quickly as possible.
    The second step is to discipline the Coast Guard to ensure that the 
Deepwater acquisition remains within its cost, schedule, and 
performance baselines. The revised Deepwater plan will complete the 
recapitalization of the Coast Guard with a post-9/11 system-of-systems 
in 25 years for an acquisition cost of $24 billion. Part of baseline 
discipline will be achieved by requirements stability. But it will also 
be achieved by cost control and persistent oversight of ICGS and its 
subcontractors. The Deepwater contract is at a turning point as it 
faces its impending next award term. The Coast Guard will negotiate 
favorable terms and conditions that allow for:

  <bullet> A greater focus on cost control by using:

        --More appropriate contract type selections.
        --Performance incentives within each order.
        --Using award fee to support the award term criteria.

  <bullet> A more realistic pricing philosophy understanding the 
        flexibility required due to appropriation fluctuations.

  <bullet> A greater focus on requirements stability so that baselines 
        are more easily established and can be better monitored.

  <bullet> Greater ICGS accountability by ensuring the government 
        members of the Integrated Product Teams (IPTs) exercise their 
        customer oversight and feedback roles. This will ensure that 
        the Contractor maintains responsibility for decisions it makes.

    Finally, I will oversee the introduction of new Deepwater assets 
into the Coast Guard. This third step is to ensure that the people of 
the Coast Guard welcome these new assets into their tool bag, are 
trained to use these new tools, and are supported assuring their peak 
operational performance in the future.
Delay in Rescue 21 Launch
    Question 4. The Coast Guard is modernizing its outdated national 
distress communications systems. The new system, called Rescue 21, will 
be the Nation's primary maritime emergency system and will greatly 
improve the Coast Guard's ability to detect mayday calls from boaters, 
pinpoint the location of the source of the call, and coordinate rescue 
operations along the 95,000 mile U.S. coastline and interior waterways.
    The Rescue 21 project, launched in 2002 with General Dynamics as 
the prime contractor, is behind schedule. Two prototype versions of the 
search and rescue system were launched in December 2005, in Atlantic 
City, New Jersey, and on the Eastern Shore of Virginia. Full nationwide 
system rollout to 44 additional regions, originally slated for 2006, is 
now slated for completion in 2011.
    I am concerned that the completion dates for the rollout of the 
Rescue 21 emergency communications system are slipping. Full rollout 
was originally scheduled for 2006 and is now projected for 2011.
    What will be done to ensure that project completion stays on the 
current schedule?
    Answer. The Coast Guard has worked extensively with the contractor 
to establish a credible and realistic Rescue 21 project schedule, 
considering time lines for compliance with the National Environmental 
Policy Act, the significant number of outstanding real property 
acquisitions and new tower construction required, and the contractor's 
production capabilities. Several management and oversight actions have 
been initiated to ensure project completion stays on schedule, to 
include:

  <bullet> Establishing a Coast Guard Project Resident Office co-
        located at the contractor's manufacturing facility to increase 
        government oversight, awareness, and involvement.

  <bullet> Initiating use of the Defense Contract Management Agency and 
        Defense Contract Audit Agency to assist in validating the 
        contractor's technical proposals and cost reasonableness.

  <bullet> Scheduling a Program level Integrated Baseline Review (IBR) 
        in 2006 to verify the contractor's proposed cost, schedule, and 
        performance efforts in the first 15 Full Rate Production 
        regions. Subsequent IBRs will be conducted thereafter for the 
        remaining regions.

  <bullet> Initiating monthly Integrated Project Schedule reviews 
        between Coast Guard and the contractor.

  <bullet> Conducting quarterly Coast Guard Flag-level/General Dynamics 
        Vice President-level program reviews to resolve outstanding 
        issues and increase senior level oversight.

  <bullet> Conducting monthly Risk Management and Earned Value 
        Management (EVM) cost performance reviews to increase program 
        management oversight for improved risk mitigation and taking 
        actions based on the EVM data.

  <bullet> Incrementally re-pricing expired Contract Line Items for 
        Full Rate Production regions. Leveraging actual cost data and 
        instilling program level lessons learned during the Initial 
        Operating Capability regions, resulting in more reasonable cost 
        targets for future work.
    The Coast Guard remains committed to a 2011 program completion 
date. It should be noted that the significant technical challenges of 
initial system design have been met and the program is in Full Rate 
Production (FRP). All remaining regional installation work is expected 
to be more standardized and the contractor is starting to realize 
production efficiencies and leveraging installation experience and 
institutionalizing lessons learned from each regional deployment. No 
further technical schedule delays are envisioned.

    Question 5. The budget for the Rescue 21 emergency communications 
system has significantly decreased over the past year. The FY 2006 
Department of Homeland Security Appropriations Act funded the program 
at $41 million instead of the President's FY 2006 requested level of 
$101 million, apparently because there was not a clear communication 
that the Coast Guard had obligated most of its prior year balances. The 
budget request for FY 2007 is flat, at $39.6 million. Could these 
funding levels ultimately lead to an increase in total costs for the 
program, and possibly to further delays?
    Answer. Rescue 21's unobligated balance at the close of FY 2005 was 
$16.1 million. The final Full Operational Capability (FOC) date is 
still projected in 2011. To meet immediate funding needs in light of FY 
2006 enacted funding below the President's $101 million Budget Request 
and FY 2007 Budget Request of $39.6 million, the Coast Guard will de-
obligate and then re-obligate Rescue 21 long lead time material funds 
obligated in FY 2005 for the final 25 regions. By doing so, the Coast 
Guard intends to execute an $80 million implementation plan in FY 2007 
to ensure that project completion remains fixed at 2011. The 
reapportioned long lead time material funding in 2007 is critical to 
enable the contractor to adhere to a planned regional system design, 
infrastructure preparation, and system installation schedule to achieve 
the 2011 project completion.
    Therefore, the 2006 and 2007 funding levels, in and of themselves, 
do not lead to either a cost and/or schedule increase. Rather, the 
first 14 Full Rate Production (FRP) regions are funded predominantly 
with prior year appropriations, including the re-obligations mentioned 
above. Eight of those regions are scheduled to achieve FOC (full 
operating capability) in 2007 and the other 6 in 2008.

    Question 6. What will you do to make sure there is adequate funding 
to complete this critical program?
    Answer. To remain steadfast to the 2011 project completion given 
the Fiscal Year (FY) 2006 and 2007 funding levels, the Coast Guard 
plans to redirect a portion of $76 million obligated in FY 2005 to 
procure long lead time materials for the final 25 regional 
installations. The reapportioned funding will ensure that project 
remains within current approved cost and schedule baselines. The Rescue 
21 program planning is in concert with the Coast Guard FY 2007-2011 
Capital Investment Plan (CIP) profile.
    Adequate funding is critical to the success of the program; thus, 
the Coast Guard has implemented the following measures to monitor 
performance and ensure costs remain within budget.

  <bullet> Reapportion long-lead time material funding obligations from 
        the final 25 Full Rate Production (FRP) regions to the first 15 
        FRP regions. This way 8 achieve FOC (full operating capability) 
        in 2007 and 6 achieve FOC in 2008.

  <bullet> Validate the contractor's technical proposals and cost 
        reasonableness.

  <bullet> Establish a milestone for program level Integrated Baseline 
        Review to verify the contractor's proposed cost, schedule, and 
        performance efforts.

  <bullet> Initiate monthly Integrated Project Schedule reviews between 
        the Coast Guard and the contractor.

  <bullet> Conduct quarterly reviews and monthly Risk Management and 
        Earned Value Management cost performance reviews to increase 
        program management oversight and take corrective actions, as 
        necessary.

  <bullet> Re-price expired Contract Line Items for Full Rate 
        Production regions.

Port Security
    Question 7. At a recent hearing before this Committee, the 
International Longshore and Warehouse Union (ILWU) testified that the 
U.S. Coast Guard is limited in its ``landside'' enforcement 
capabilities with respect to Maritime Transportation Security Act 
(MTSA) facility security plans. This is of grave concern for 
dockworkers who live near the ports and who would be in the immediate 
impact zone if a weapon of mass destruction were detonated at a port. 
What is your perspective on this issue?
    Answer. Coast Guard Captains of the Port (COTP) have considerable 
landside enforcement authorities and a wide range of robust enforcement 
tools they can utilize if a facility security compliance inspection 
identifies areas where the facility owner/operator is not maintaining 
the standard established in the Coast Guard approved Facility Security 
Plan (FSP). These enforcement tools can range from a letter of warning 
to a COTP Order to stop all operations at the facility pending 
resolution of the noncompliance. The purpose of any enforcement action 
is to bring the facility into compliance and the Coast Guard believes 
it has ample enforcement authority to address the security areas for 
which it is responsible.
    Additionally, following 9/11, the Coast Guard regained authorities 
to enforce laws on land, which it historically had but had waned 
following World War II. 46 U.S.C. Section 70118 (from the Maritime 
Transportation Amendments of 2004) authorizes members of the Coast 
Guard to carry firearms, and, while at a waterfront facility, make 
warrantless arrests for felony offenses that occur in their presence, 
and seize property. This allows the Coast Guard to have a stronger, 
``cop on the beat'' presence in the ports on a day-to-day basis.

    Question 8. Do you agree that currently the U.S. Coast Guard is not 
sufficiently staffed to conduct landside enforcement of the MTSA 
regulations?
    Answer. The Fiscal Year 2005 Department of Homeland Security (DHS) 
Budget provided the Coast Guard with 791 billets on a recurring basis 
to address the needs of MTSA. These billets are being used for 
continued verification of domestic and facility security requirements, 
a robust Port State Control program to ensure compliance with 
international security requirements, continuous updates and 
improvements to the National and Area Maritime Security plans, and the 
assessment of domestic and foreign ports for compliance.
    The Coast Guard continues to be proactive in training new personnel 
to perform facility security inspections; we are confident that our 
current force is capable of adequately executing the landside mission 
of facility security oversight in those areas designated under Coast 
Guard authorities.

    Question 9. The International Longshore and Warehouse Union (ILWU) 
testified before the Committee that port facility operators have 
repeatedly refused to implement several critical Maritime 
Transportation Security Act (MTSA) regulations, such as personnel, 
vehicle, and cargo access control; placarding and segregating of 
dangerous cargo and hazardous materials; and security training for port 
workers to ensure proper response to a security incident.
    Labor has raised the concern that while the U.S. Coast Guard 
security regulations require port workers to be trained and 
knowledgeable about the basic requirements of port facility security 
plans to ensure that they know the proper response and evacuation 
procedures in the event of a security incident, the port facility 
operators currently refuse to share such security plans with 
dockworkers claiming ``confidentiality'' as the grounds for refusal. 

What is your opinion of this practice?
    Answer. We greatly appreciate the dedication to security that has 
been evidenced by the ILWU as part of our Nation's effort to protect 
our vital maritime infrastructure. The nature of the ordering system 
for unionized waterfront labor offers the advantage of providing a 
great opportunity for labor to view the larger picture of security in a 
port, since the union members accept labor orders at different marine 
terminals, oftentimes on a daily basis. Unfortunately, this makes 
sharing of Facility Security Plans which are Sensitive Security 
Information (SSI), for individual terminals problematic. SSI is shared 
strictly on a ``need to know'' basis and this information is only to be 
shared with employees or others who have specific security duties under 
the plan. If, on the other hand, the plans were available to all 
employees, a terrorist posing as an employee could move from terminal 
to terminal and quickly establish the security posture of the entire 
port and identify the area most vulnerable to attack.
    The greatest contribution that unionized labor member can make to 
maritime security is as the eyes and ears of the terminal where they 
are working. They do not act in the role of responders to incidents but 
do have an awareness of what is normal and what is out of the ordinary. 
If they report anything suspicious to their supervisor, they have a 
contribution to overall security. Otherwise, they should be aware of 
the current Maritime Security level at the terminal where they are 
working and any security instructions from the terminal operator for 
whom they are working on any given day. They can receive this through 
signage on the terminal, or during gangway meetings prior to the start 
of operations.

    Question 10. How do you recommend that dockworkers gain access to 
the response and evacuation provisions of the terminal facility 
security plans if the facility owners refuse to disclose any aspect of 
the security plans to them?
    Answer. Dockworkers serve an important role in the security of our 
ports, but that does not necessarily include the role of responder in 
the event of a Transportation Security Incident (TSI). Nor do they tend 
to have any other specific security duties at a marine terminal. 
However, any instruction they may need relative to the security 
measures in the Coast Guard approved plans (including facility 
evacuation procedures) can be accomplished through signage, pamphlets, 
or gangway meetings prior to the start of operations. Otherwise, the 
Sensitive Security Information (SSI) designation of the FSPs would 
prohibit the terminal operators from sharing that information with 
anyone who did not have a demonstrable ``need to know'' and a defined 
role in the execution of the FSP.

    Question 11. How can the U.S. Coast Guard ensure that the 
dockworkers get this critical information needed for their safety and 
security?
    Answer. If dockworkers feel they are not getting the security 
information they need from a terminal operator, the ILWU leadership 
should contact the local Captain of the Port (COTP). The COTP can 
engage the terminal operator, and make sure that appropriate 
information needed by labor is being shared correctly. We also strongly 
recommend that the leadership of the waterfront labor unions become 
involved in their local Area Maritime Security Committees to stay 
informed of and provide input on security issues in the local ports.
Competition for GMDSS Services
    Question 12. The Global Mobile Distress Safety System, known as 
GMDSS, has proven critical to the safety of life at sea and the 
protection of seafaring vessels. What steps has the Coast Guard taken 
to ensure that there is redundancy and diversity in the provision of 
GMDSS services? Realistically speaking, when do you expect that other 
providers will be able to provide GMDSS services?
    Answer. The GMDSS was designed with redundancy and diversity from 
the beginning. For example, in addition to [INMARSAT] satellite 
communications services, the GMDSS includes satellite emergency 
position-indicating radio beacons (EPIRB) operating capability through 
the international COSPAS-SARSAT system, managed in the U.S. by the 
National Oceanographic and Atmospheric Administration (NOAA). In the 
U.S., 150 mariners were rescued in 54 incidents in 2005 through this 
one GMDSS element alone. The Coast Guard also operates high frequency 
and medium frequency distress and safety radio communications systems 
under the GMDSS, providing another level of diversity to mariners. The 
Rescue 21 system is a further diverse element of the GMDSS providing 
both Digital Selective Calling (DSC) Channel 70 and VHF Channel 16 for 
distress and rescue coordination.
    INMARSAT was originally established as an international 
organization to provide mobile satellite telecommunication safety 
services to mariners. As a result, INMARSAT possesses a competitive 
edge over other mobile satellite systems designed to provide primarily 
land-based services. The Coast Guard is committed to continue working 
with the U.S. mobile satellite industry to help them gain recognition 
in the GMDSS, and we expect to succeed in establishing a reasonable 
process within the next couple of years for those mobile satellite 
providers who are serious about pursuing such a service for the long 
term.

    Question 13. The draft regulations developed by COMSAR at their 
most recent meeting at the International Maritime Organization still 
include insurmountable barriers to entry for other providers. These are 
to be considered at the next meeting of the Marine Safety Committee. 
What steps is the Coast Guard taking to assure that the final 
procedures adopted by IMO reduce these barriers, and provide for real 
competition among providers?
    Answer. At the recent COMSAR 10 subcommittee meeting, the U.S. took 
a formal reservation to the proposed draft revision of Resolution 
A.888(21), stating ``that it did not believe that such a procedure 
[expeditious incorporation of additional mobile-satellite providers 
into the Global Maritime Duties and Safety System (GMDSS)] had yet been 
established and was concerned that the path being followed would be 
counterproductive to the shared goal. Specifically: ``. . . it 
established a process for oversight and approval that would discourage 
new systems from offering to provide GMDSS by imposing restrictive 
conditions on entry.'' This reservation allows the matter to be 
reconsidered at the Maritime Safety Committee (See COMSAR 10/WP.6)
    Except for the Russian Federation, other administrations did not 
accept our argument, believing that these barriers are not so onerous.
    We sought out and encouraged U.S. mobile satellite providers to 
participate in the U.S. delegation to the last several sessions of 
COMSAR on this topic. Until COMSAR 9, U.S. providers had little 
interest in this matter. We also had extensive discussions with mobile 
satellite providers and with the International Mobile Satellite 
Organization (IMSO), who under this agreement has the responsibility of 
bringing other providers into the GMDSS. U.S. Head of Delegation (HOD) 
met with IMSO leadership to encourage IMSO and the satellite providers 
to work together to reduce these barriers.
    It is in IMSO's interest to bring other providers into the GMDSS. 
If they fail, the matter will be reconsidered at IMO. It's not in 
anyone's interest that other mobile satellite providers not participate 
in the GMDSS. If the barriers are proven burdensome, we expect support 
in bringing the matter back to IMO.
    On a more positive note, COMSAR agreed to allow mobile satellite 
providers to participate in Long Range Identification and Tracking in a 
matter not at all burdensome to their participation.

    Question 14. Are there any new services that are being developed by 
the private sector that will improve ship safety and security, and if 
so, what is the Coast Guard doing to expedite their implementation?
    Answer. The Coast Guard continues to evaluate new technology and 
products developed by the maritime industry to improve safety and 
security onboard vessels as part of normal Coast Guard plan review 
processes. Proposed regulations requiring these new advancements are 
closely scrutinized and balance the impact against the existing 
regulations.
    The Coast Guard recognizes the expertise of the maritime industry 
and provides some flexibility when creating regulations where possible. 
The existing maritime safety regulations, while prescriptive in nature, 
permit the use of new technology and novel equipment as long as the 
regulatory intent is met. Similarly, maritime security regulations 
promote innovation through outcome-based requirements.

   Response to Written Questions Submitted by Hon. John F. Kerry to 
                       Vice Admiral Thad W. Allen
Loran-C
    Question 1. The Coast Guard's FY 2007 budget proposal calls for the 
elimination of the Loran-C navigation system. As you know, Loran is 
used by general aviators, recreational boaters, commercial fisherman 
and the military as a backup to the Global Positioning System (GPS). It 
is, in fact, the only multi-modal backup to GPS. The Coast Guard's 
proposal is troubling given that Congress has appropriated more than 
$160 million since 1997 to modernize the Loran system and the 
Department of Transportation is currently formulating a new policy on 
the long-term continuation of the Loran system. It is unclear that the 
Coast Guard coordinated this request with other Federal agencies or 
that it thought through the national security implications of 
eliminating Loran or its impact on civilian users.
    Can you explain how the Coast Guard's proposal was coordinated with 
the Department of Transportation, the Federal Aviation Administration, 
the Department of Defense, and any other affected agencies?
    Answer. The 2005 Federal Radionavigation Plan, the official source 
of radionavigation policy and planning for the Federal Government, was 
jointly prepared by the Departments of Defense, Transportation and 
Homeland Security. This document was signed by Secretaries Rumsfeld, 
Mineta and Chertoff, and was published on February 10, 2006. The 2005 
Federal Radionavigation Plan states:
    ``The Department of Defense has determined that Loran is no longer 
needed as a positioning, navigation or timing aid for military users.''
    ``With respect to aviation, the Federal Aviation Administration has 
determined that sufficient alternative navigational aids exist in the 
event of a loss of the Global Positioning System based services, and 
therefore Loran is not needed as a backup navigation aid for aviation 
users.''
    ``With respect to maritime safety, the Coast Guard has determined 
that sufficient back-ups are in place to support safe maritime 
navigation in the event of a loss of the Global Positioning System 
services, and therefore Loran is not needed as a back-up navigational 
aid for maritime safety.''
    Having found no government requirement for Loran for positioning 
and navigation, a study of critical infrastructure timing applications 
was conducted by the Department of Homeland Security. This study 
concluded Loran was not used as a backup or a tertiary system for 
timing in banking and finance, emergency services, energy, 
telecommunications and water critical infrastructure sectors.

    Question 2. Did the Coast Guard solicit comments from civilian 
organizations such as the National Boating Federation and BOAT-US?
    Answer. A 2005 Maritime Administration study found limited use of 
Loran in the commercial maritime community. Other non-governmental 
organizations were not cited as having been surveyed.

    Question 3. Do you agree with the Coast Guard's decision to 
terminate Loran-C?
    Answer. Yes, the Coast Guard has carefully considered the value of 
Loran as a primary source of positioning, navigation and timing, or as 
a back-up to the Global Positioning System. The Departments of Defense, 
Homeland Security, Commerce, and Transportation have stated they do no 
longer have a requirement for Loran. The Federal Aviation 
Administration considers Loran a tertiary system. The Federal Railway 
Administration and Federal Highway Administration have stated they have 
no need for Loran. A 2005 Maritime Administration study found limited 
use of Loran in the commercial maritime community. The Coast Guard 
believes there are sufficient maritime back-ups and procedures in place 
for marine users (commercial and private) in the event of a loss of the 
Global Positioning System and, thus, has no requirement for Loran.
    Having found no government requirement for Loran for positioning 
and navigation, a study of critical infrastructure timing applications 
was conducted by the Department of Homeland Security. This study 
concluded Loran was not used as a back-up or a tertiary system in 
banking and finance, emergency services, energy, telecommunications and 
water critical infrastructure sectors. Having determined there is no 
national requirement for Loran, I concur with the Coast Guard's 
proposal to decommission the system.

    Question 4. Has an analysis been conducted to determine how much it 
will cost to decommission, dismantle and clean up the Loran sites and 
stations to bring them into compliance with the National Environmental 
Policy Act?
    Answer. The Coast Guard is in the process of estimating the cost to 
decommission, dismantle and clean up the Loran sites and stations to 
bring them into compliance with the National Environmental Policy Act 
(NEPA). The analysis is not yet complete.

    Question 5. If so, can you summarize the results of the analysis 
and provide a copy to the Commerce Committee?
    Answer. The Coast Guard National Environmental Policy Act 
compliance process is not yet complete; the analysis is ongoing.

    Question 6. Has the Coast Guard decided where it will transfer 
personnel working at the various Loran stations? Will any employees 
lose their jobs?
    Answer. Uniformed personnel will be reassigned to fill vacancies 
within the Coast Guard. Civilian employees will be managed through 
Federal job placement programs and retirements.

    Question 7. Can you tell me, in detail, where personnel would be 
transferred and, if any employees lose their jobs, can you provide 
information detailing how many cuts will be made and which states/
localities will be affected?
    Answer. Military personnel will be transferred to vacancies based 
on the needs of the service which are identified each assignment year. 
Eighteen civilian positions will be eliminated. The number and 
locations of these positions are listed below. Employees in these 
positions will be managed through Federal job placement programs and 
retirements.
    No. of Civilian Positions by State

        2--Alaska
        2--District of Columbia
        1--Florida
        2--Maryland
        1--Maine
        3--Virginia
        7--New Jersey

Safety
    Question 8. The Coast Guard's Office of Safety and Compliance has 
begun work on a web-based risk management system that would link 
various occupational health and safety databases and allow Coast Guard 
personnel to better determine how to allocate resources to help reduce 
accidents and injuries.
    Do you support this project and will you commit to seeing that it 
is adequately funded and completed?
    Answer. I commend the Coast Guard's Office of Safety and 
Environmental Health for its pursuit of risk management initiatives and 
understand the value of the metrics derived from a well designed, 
highly integrated, web-based safety risk management system. I strongly 
support our health and safety professionals in their efforts to reduce 
both the rate and severity of accidents and their desire for a web-
based risk management system that will enable better protection of 
Coast Guard men and women, improving their readiness and the 
operational effectiveness of the service.
    Ensuring the occupational health and safety of our Coast Guard men 
and women through appropriate risk management is and will continue to 
be an overarching priority. While our track record regarding on-duty 
accidental fatalities is the best among the Armed Forces (1 accidental 
on-duty fatality since 2001), preserving the readiness or our workforce 
through safety awareness, education and prevention is an ongoing 
process that requires continual honing. Development of a web-based risk 
management system will be a major step in improving our linkage and 
analysis of risk data, ultimately enabling our safety professionals to 
proactively identify hazards and engage field commanders in controlling 
and mitigating those hazards before mishaps occur. The Coast Guard's 
Office of Safety and Environmental Health will continue its efforts to 
implement a web-based risk management system while continuing to work 
closely with the Department of Homeland Security in establishing 
requirements for a Department-wide risk management information system, 
as well as implementing CIO and CHCO functional integration 
initiatives.
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Vice Admiral Thad W. Allen
    Question 1. In your statement, you mentioned on several occasions 
the dynamism of the maritime domain and that new threats are constantly 
emerging that will require our future attention. Are there specific 
future threats that the Coast Guard is planning for? In your 
estimation, in what ways will new threats require adjustment to current 
Coast Guard operations?
    Answer. The U.S. Coast Guard Intelligence Program has noted 
multiple direct, implied, or potential threats to maritime 
infrastructure across the Nation; however, no attack operations have 
materialized to definitively confirm the reports associated with these 
threats or establish the credibility of the sources involved. 
Nevertheless, targets identified include oil and chemical 
infrastructure, cruise ships and ferries, along with bridges, tunnels 
and rail infrastructure. The greatest potential for a maritime threat 
to the maritime infrastructure of the United States is the ability to 
introduce weapons, explosive devices, people and even weapons of mass 
destruction into or through the maritime domain and across the maritime 
border via intermodal means with the intent to attack the port or other 
targets further inland.
    The greatest observed maritime threat remains smuggling, including 
Special Interest Aliens (SIAs) and illicit materials. The same factors 
that facilitate successful intermodal and other supply chain trade 
activity provide multiple points of exploitation for criminal smuggling 
activity. The lines separating maritime drug smuggling, illegal migrant 
smuggling, criminal enterprises and maritime terrorism have become less 
distinct. SIAs can conceal their identities while moving through any 
number of existing venues of maritime entry into the United States, 
representing an ongoing threat in terms of their ability to carry out 
planning, logistics or future terrorist operations in the homeland, 
including our ports.
    Countering the dynamic nature of the threat and the expansiveness 
of the maritime domain, the Coast Guard will continue to employ a suite 
of activities aimed at reducing risk, identifying vulnerabilities, and 
strengthening partnerships--all with the single purpose of presenting a 
unified adaptive approach to securing America's ports and waterways. To 
reduce risk we have:

  <bullet> Published Maritime Sentinel, the Coast Guard's strategic 
        plan for combating maritime terrorism.

  <bullet> In conjunction with DHS, DOJ and DOD, developed the Maritime 
        Operational Threat Response (MOTR) Plan, which builds upon and 
        improves the Presidential Directive 27 process to ensure 
        nationally coordinated maritime operational response to address 
        the full spectrum of 21st Century maritime security and defense 
        threats to, or directed against, the United States and its 
        interests globally.

  <bullet> Conducted Port Threat Assessments (PTAs), which provide the 
        local Sector Commander or Captain of the Port threat analysis 
        compiled from foreign, national and local intelligence 
        reporting and from law enforcement information, incorporating 
        everything from criminal enterprises to environmental activists 
        and extremist/terrorist-related activity.

  <bullet> Had the U.S. Coast Guard Intelligence Program compile and 
        analyze information about activities from across the country 
        and the world to discern patterns of suspicious incidents that 
        have a maritime nexus.

  <bullet> Sustained operation of thirty Field Intelligence Support 
        Teams (FISTs) in key U.S. ports.

  <bullet> Sustained operation of Maritime Intelligence Fusion Centers 
        (MIFC) under each Area Commander to provide actionable 
        intelligence to U.S. Coast Guard operational Commanders while 
        also sharing that analysis with interagency partners and the 
        broader intelligence community.

  <bullet> Developed a joint vessel monitoring effort, titled 
        ``COASTWATCH'', with the Office of Naval Intelligence (ONI).

  <bullet> Developed the Maritime Homeland Threat Analysis Division at 
        the National Maritime Intelligence Center, in conjunction with 
        the ONI.

  <bullet> Participated on a full-time basis in the FBI National Joint 
        Terrorism Task Force (JTTF) and select Regional JTTFs that 
        include a maritime nexus.

  <bullet> Executed Operation Drydock, which began in December 2002 as 
        a joint U.S. Coast Guard and FBI criminal and counterterrorism 
        investigation into national security threats and document fraud 
        associated with U.S. merchant mariner credentials. The 
        Operation Drydock databases are also used by CG Regional 
        Examination Centers (REC) to vet applicants seeking U.S. Coast 
        Guard merchant mariner documents and licenses.

  <bullet> Implemented Project Scorpion, an archetypal national-level 
        collaborative partnership with DHS, DOJ, and DOD counterparts 
        under Coast Guard leadership to identify, track and intercept 
        special interest aliens with possible terrorist or affiliate 
        ties before they arrive in the U.S. via maritime means.

    Achieving Maritime Domain Awareness (MDA) will not involve one 
capability, but rather many diverse capabilities working together in a 
coordinated and integrated manner. It will require (1) maintaining and 
accessing data on vessels, facilities and infrastructure, and (2) 
collecting, analyzing and disseminating critical information to 
decision makers to facilitate effective understanding of the global 
environment, and recognizing our threats and vulnerabilities within 
U.S. ports.
Rescue 21
    Question 2. As you know, nationwide deployment of Rescue 21, which 
was slated for 2006, is not expected until 2011. Last year the program 
was funded at $41 million--well below the President's request of $101 
million. I understand that this is partially due to the impression of 
unobligated funds that were in fact obligated by the end of the fiscal 
year. I'm concerned that the President's FY 2007 request of $39.6 
million reflects continued misunderstanding and will hamper the 
implementation of this important program. How did the Coast Guard 
compensate for the low funding level in FY 2006 and what will the 
approach be in FY 2007 under your leadership if Rescue 21 is funded at 
he President's request level or below $100 million?
    Answer. The Coast Guard remains committed to its 2011 project 
completion date. To compensate for the funding levels in the FY 2006 
enacted budget and the 2007 President's Request, the Coast Guard will 
redirect a portion of the $76 million obligated in FY 2005 to procure 
long lead time materials for the final 25 regional installations. These 
funds will instead be used to execute an $80 million implementation 
plan in FY 2007 to ensure the project is complete in 2011 per the 
current program installation schedule.

    Question 3. What has the Coast Guard done (or can the Coast Guard 
do, in your view) to address appropriators' remaining concern, namely 
extensive program delays?
    Answer. Several management and oversight actions have been 
initiated to ensure project completion stays on schedule to include:

  <bullet> Establishing a Coast Guard Project Resident Office co-
        located at the contractor's manufacturing facility to increase 
        government oversight.
  <bullet> Initiating use of the Defense Contract Management Agency and 
        Defense Contract Audit Agency to assist in validating the 
        contractor's technical proposals and cost reasonableness.

  <bullet> Scheduling a Program level Integrated Baseline Review in 
        2006 to verify the contractor's proposed cost, schedule, and 
        performance efforts in 15 Full Rate Production regions.

  <bullet> Initiating monthly Integrated Project Schedule reviews 
        between Coast Guard and contractor.

  <bullet> Conducting quarterly Coast Guard Flag level/General Dynamics 
        Vice President level program reviews to resolve outstanding 
        issues and increase senior level oversight.

  <bullet> Conducting monthly Risk Management and Earned Value 
        Management cost performance reviews to increase program 
        management oversight.

  <bullet> Incrementally re-pricing expired Contract Line Items for 
        Full Rate Production regions. Leveraging actual cost data and 
        program level lessons learned, resulting in more reasonable 
        cost targets for future work.

  <bullet> Additionally, the schedules for the Vessel Subsystems and 
        the Ground Subsystems have been separated to avoid delaying the 
        Ground Subsystem deployment which is in full rate production.

    Delays experienced to date during the Development (design and 
prototype) Phase were a result of problems with software development, 
hardware integration, testing, and associated system refinement. The 
time invested to ``get the system right'' for this critical lifesaving 
and command and control system was necessary prior to starting the Full 
Rate Production (FRP) Phase for the remaining 40 regions.
    At the start of FRP for the ground system, the Coast Guard worked 
extensively with the contractor to establish a credible and realistic 
project schedule, considering time lines for compliance with the 
National Environmental Policy Act, the significant number of 
outstanding real property acquisitions and new tower construction 
required, and the contractor's production capabilities.
Icebreakers
    Question 4. We appreciate all your help and expertise working 
towards a near and long-term plan to maintain the icebreaker fleet. The 
interim National Research Council report on polar icebreakers 
recommends that management of the polar icebreakers should be managed 
by the Coast Guard and funded in the Coast Guard budget. As Commandant, 
what will you do to ensure that the Nation's icebreaking capacity is 
maintained and well managed through the Coast Guard?
    Answer. Along with completing the National Research Council (NRC) 
study later this year, we are also seeking a national policy decision 
from the Administration to further clarify our Nation's polar 
icebreaker requirements. In the short-term, we are working with the 
National Science Foundation to properly fund one heavy polar icebreaker 
and HEALY in accordance with the NRC interim report. Once we gain a 
national policy decision, we can move forward on plans to recapitalize 
our heavy polar icebreakers. If budget authority for the polar 
icebreakers is returned to the Coast Guard, we would restructure the 
reimbursement process to allow the Coast Guard to properly fund the 
polar icebreaker fleet with well established base funds and use 
reimbursements to insure the fleet is fully funded.
    In order to equitably manage the polar icebreaker program used by 
several other agencies, the Coast Guard would need to have the 
authority to establish day rates for ``in-government'' user agencies. 
To remain consistent with 1983 Arctic and Antarctic Research Policy 
legislation, which outlined the requirement for polar research users to 
only pay ``recurring incremental rates'' for polar icebreakers, this 
needed authority would have to specify that any Coast Guard standard 
day rates developed for use of polar icebreakers would not include 
personnel costs but would allow the Coast Guard to manage differences 
between established funding and actual costs on a yearly basis.
Oil Spills and Katrina
    Question 5. There has been some confusion about the impact that 
Hurricanes Katrina and Rita had on oil and gas platform infrastructure 
in the Gulf and whether or not any spills occurred as a result. Aerial 
and satellite photos taken in September 2005, show what appear to be 
oil slicks emanating from damaged natural gas drilling platforms that 
were in the path of the hurricanes. Is the Coast Guard aware of any 
such spills or ecological damage that might have occurred as a result 
of oil spills from drilling platforms?
    Answer. Hurricanes Katrina and Rita impacted the oil and natural 
gas platforms in the Gulf of Mexico causing known oil spills and 
releases of gas. The exact number of platform oil spills or gas 
releases has been difficult to determine. However, as of March 27, 
2006, two platforms still have unsecured discharges. Both discharges 
are over sixty miles offshore in over 200 feet of water. The rig owners 
are responding to close of these wells. Exact numbers are difficult as 
manned platforms near the hurricanes paths were evacuated due to safety 
considerations and the industry infrastructure (vessels, piers, 
equipment) used to assess and make repairs were significantly damaged. 
The Mineral Management Service (MMS) is currently surveying offshore 
platform owners to determine the amount of oil and hazardous materials 
that were lost from their platforms due to these storms. It is unknown 
when this survey will be completed. Although the exact number of spills 
is not known at present, there have been no reported impacts from these 
natural gas and oil spills and no oil is known to have reached the 
shoreline.
Traditional v. Non-Traditional Missions
    Question 6. We are grateful for the Coast Guard's expertise in 
their expanded role in homeland security post-9/11; however, we remain 
concerned that the Coast Guard lacks sufficient support to carry out 
new missions as well as traditional missions at pre-9/11 levels. In 
your view, have the Coast Guard's traditional core missions, such as 
fisheries enforcement, SAR, and maritime law enforcement suffered?
    Answer. The Coast Guard continues to meet the demands of its 
traditional missions while embracing its expanded homeland security 
duties. During Fiscal Year 2005, the Coast Guard met the performance 
targets for many of its core missions, including search and rescue, 
marine safety, aids to navigation, domestic ice breaking, marine 
environmental protection, fisheries enforcement and drug interdiction.
    The Coast Guard continued to show strong performance levels even in 
missions where performance targets were not reached. For instance, in 
enforcing domestic compliance with Federal fisheries regulations, the 
Coast Guard missed its performance goal by less than one percent--
mostly due to a variety of economic conditions beyond the Coast Guard's 
control such as hurricane damage, lower catch allocations and higher 
seafood prices, which have created greater incentives for fishermen to 
violate the law.
    The Coast Guard firmly believes that its inherent multi-mission 
capabilities which, when coupled with a risk-based approach to resource 
allocation, has allowed for improved efficiencies and effectiveness in 
both its homeland and non-homeland security roles.

                                  <all>

</pre></body></html>
